<html>
<title> - STOP AIDS IN PRISON ACT OF 2007, AND THE DRUG ENDANGERED CHILDREN ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 STOP AIDS IN PRISON ACT OF 2007, AND THE DRUG ENDANGERED CHILDREN ACT 
                                OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 1943 and H.R. 1199

                               __________

                              MAY 22, 2007

                               __________

                           Serial No. 110-118

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

35-600 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                  ROBERT C. SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
TAMMY BALDWIN, Wisconsin

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel
                            C O N T E N T S

                              ----------                              

                              MAY 22, 2007

                                                                   Page

                               THE BILLS

H.R. 1199, the ``Drug Endangered Children Act of 2007''..........    74
H.R. 1943, the ``Stop AIDS in Prison Act of 2007''...............    76

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     4
The Honorable Maxine Waters, a Representative in Congress from 
  the State of California, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     5

                               WITNESSES

The Honorable Dennis Cardoza, a Representative in Congress from 
  the State of California........................................
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Mr. Willie Mitchell, Chairman of the Board, San Antonio Fighting 
  Back, San Antonio, TX..........................................
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Mr. Devon Brown, Director, Department of Corrections for the 
  District of Columbia, Washington, DC...........................
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43
Mr. Vincent Jones, Executive Director, Center for Health Justice, 
  West Hollywood, CA.............................................
  Oral Testimony.................................................    44
  Prepared Statement.............................................    46
Mr. Philip Fornaci, Director, D.C. Prisoners' Project, Washington 
  Lawyers' Committee for Civil Rights and Urban Affairs, 
  Washington, DC.................................................
  Oral Testimony.................................................    51
  Prepared Statement.............................................    53
Rear Admiral Newton E. Kendig, M.D., Assistant Director, Health 
  Services Division, Federal Bureau of Prisons, U.S. Department 
  of Justice, Washington, DC.....................................
  Oral Testimony.................................................    55
  Prepared Statement.............................................    58

                                APPENDIX

Material Submitted for the Hearing Record........................    73


 STOP AIDS IN PRISON ACT OF 2007, AND THE DRUG ENDANGERED CHILDREN ACT 
                                OF 2007

                              ----------                              


                         TUESDAY, MAY 22, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 12:39 p.m., in 
Room 2226, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Waters, Johnson, Forbes, 
and Coble.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Rachel King, Majority Counsel; Veronica Eligan, Professional 
Staff Member; and Michael Volkov, Minority Counsel.
    Mr. Scott. The Subcommittee will come to order.
    I am pleased to welcome you today to the hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security on H.R. 
1199, the ``Drug Endangered Children Act of 2007,'' and H.R. 
1943, the ``Stop AIDS in Prison Act of 2007.''
    We will first take up H.R. 1199, the ``Drug Endangered 
Children Act of 2007.'' Congressman Cardoza is the primary 
sponsor of the bill, which would extend funding for the Drug 
Endangered Children Grant Program through fiscal year 2008 and 
2009.
    This grant program was first authorized in title 7 of the 
USA Patriot Improvement and Reauthorization Act of 2005, which 
authorizes up to $20 million a year for grants to address this 
problem.
    One of the most troubling aspects of drug use is its impact 
on children. According to the Drug Enforcement Agency, over 
15,000 children were found at methamphetamine labs from 2000 to 
2004. The problem is not limited to methamphetamine use. A 
Health and Human Services study found that over 1.6 million 
children live in homes where a variety of illicit drugs are 
used.
    These drug-infested conditions stretch child welfare 
agencies beyond their capacity because of increased violence 
and neglect.
    On February 6 of this year, the Subcommittee held a hearing 
on H.R. 545, the ``Native American Methamphetamine Enforcement 
and Treatment Act of 2007,'' which was passed out of this 
Subcommittee and out of the full Judiciary Committee.
    A central provision of H.R. 545 extends eligibility for 
Drug Endangered Children grants to Native American tribes. 
However, unless this bill passes the authorization for Drug 
Endangered Children grants will expire this year, negating the 
efforts to help Native American children.
    After we take that bill up, we will take up H.R. 1943, the 
``Stop AIDS in Prison Act.'' The gentlelady from California, 
Ms. Waters, introduced H.R. 1943, a bill similar to H.R. 1638, 
which she introduced in September of 2006.
    The bill would create comprehensive HIV/AIDS programs in 
Federal prisons that would educate, diagnose and treat 
prisoners who are infected with HIV/AIDS and prevent those who 
are not infected from becoming infected. Yet the HIV/AIDS 
epidemic is spreading at an alarming rate, especially in 
minority communities.
    According to the Centers for Disease Control and 
Prevention, the CDC 2005 statistic states racial and ethnic 
minorities comprise 69 percent of all new HIV/AIDS cases. 
Furthermore, 41 percent of all prisoners in Federal prisons at 
the end of 2004 were African-American.
    These statistics show a clear need to educate prisoners 
about HIV/AIDS prevention, to detect existing cases and to 
treat those infected. Education, detection and treatment will 
not only protect prisoners, it will protect the prison 
personnel. Additionally, the treatment and education that the 
prisoners receive while incarcerated should help decrease the 
spread of the disease to the community upon their release.
    H.R. 1943 seeks to provide an effective HIV/AIDS program in 
Federal prisons for educating, detecting and treating HIV and 
AIDS. Under the bill, all inmates would have access to 
scientifically accurate education and prevention programs which 
may be provided by community-based organizations, local health 
departments or inmate peer educators. The information would be 
expressed in a culturally sensitive way, including the 
availability of a variety of languages and an audio format for 
those with low literacy skills.
    Detection, the second portion of the program's approach, 
would begin upon a person's entry to the prison system. All 
people entering the system would be detected unless declined by 
the prisoner and would continue throughout the prisoner's 
incarceration, including annual testing available to all 
prisoners upon request and mandatory testing to prisoners who 
have been involuntarily exposed to the virus or to prisoners 
who become pregnant while incarcerated.
    Finally, the treatment portion of the program would ensure 
that infected persons receive timely comprehensive medical 
treatment consistent with the current Department of Health and 
Human Services guidelines and standard medical practice. 
Treatment options, confidentiality, counseling and access to 
medications would all be available to prisoners and medical 
personnel would help develop and implement procedures to 
safeguard confidentiality.
    Before re-entry into the community, HIV-infected prisoners 
would receive referrals to appropriate health care providers, 
additional education about protecting their family members and 
others in their community and a 30-day supply of medications to 
hold them over until they can connect with services in the 
community.
    It is now my pleasure to recognize the esteemed Ranking 
Member of the Subcommittee, my friend and colleague from 
Virginia, the Honorable Randy Forbes, for his comments.
    Mr. Forbes. Thank you, Chairman Scott. And I appreciate, as 
always, your holding this legislative hearing on H.R. 1943, the 
Stop AIDS in Prison Act of 2007, and H.R. 1199, the Drug 
Endangered Children Act.
    I want to acknowledge the dedicated work of representative 
Maxine Waters, who has been a tireless advocate on the issue of 
HIV and AIDS in prison. I am proud to be an original cosponsor 
of H.R. 1943, the Stop AIDS in Prison Act.
    I also want to acknowledge the commitment of Ranking Member 
Smith, who is a cosponsor of the same bill in the last Congress 
and a cosponsor of this year's version.
    It is certainly great to see our friend Congressman Cardoza 
here today to testify and also a true superstar, Mr. Mitchell, 
who is here with us today. And we look forward to the very 
distinguish panel to testify.
    In 2006, the Department of Justice reported that 
approximately 1.9 percent of State prison inmates and 1.1 
percent of Federal inmates were known to be infected with HIV. 
The rate of confirmed AIDS cases is three times higher among 
prison inmates than the United States general population.
    These statistics, however, may understate the problem, 
because the Bureau of Prisons is responsible for housing all 
Federal inmates, and almost all States do not test all inmates 
for HIV.
    The need for testing at the Federal and State level is 
readily apparent. There are approximately 170,000 inmates in 
Federal prison. BOP tests inmates who requested tests, fall 
within a high-risk group, have clinical indications of HIV 
related or are involved in an incident when HIV transmission 
may have occurred. Forty-eight States test inmates if they have 
HIV-related symptoms or if the inmates request the test. Only 
18 States test all incoming inmates. Only three States test 
inmates upon release.
    H.R. 1943 requires routine HIV testing for all Federal 
prison inmates upon entry and prior to release from Federal 
Bureau of Prison facilities. Under the proposal for existing 
inmates, the Bureau of Prisons has 6 months from enactment to 
offer HIV/AIDS testing from inmates. The bill also requires 
HIV/AIDS awareness education for all inmates and comprehensive 
treatment for those inmates who test positive.
    While H.R. 1943 addresses the problem in the Federal 
system, I hope that we can also examine the need for testing, 
education and prevention in State prisons. If we truly care 
about successful rehabilitation and re-entry of prisoners, we 
must address this problem at the State level as well.
    I also want to indicate my support for H.R. 1199, the Drug 
Endangered Children Act, which is also a subject of today's 
hearing. The bill extends the authorization for the current 
grant program to address the problem of drug endangered 
children.
    It is a sad consequence of our Nation's drug problem that 
drug traffickers have such a devastating impact on innocent 
children who happen to reside in a house used to facilitate the 
production and distribution of illegal drugs.
    We owe it to our Nation's children to do all that we can to 
protect them and provide them the services needed to allow them 
to grow and develop in a health, loving home.
    I look forward to hearing from today's witnesses.
    Mr. Chairman, I yield back.
    Mr. Scott. Thank you. Thank the gentleman.
    We have with us the Ranking Member of the full Committee, 
and I will ask him if he has any comments.
    Mr. Smith. Thank you, Mr. Chair. I do have a statement I 
would like to make.
    On the way to that statement, let me say to you, though, 
that this is the first time I have attended a meeting of the 
Crime Subcommittee this year and have gotten to be here while 
you are serving as Chairman. Not too many years ago, I was 
Chairman of this Subcommittee and you were the Ranking Member, 
so we have worked together for a long time on this and similar 
issues.
    But it is good to be here today. Let me thank you for 
holding a hearing today on these two important legislative 
items.
    And I also want to thank my colleague, Congresswoman 
Waters, for her leadership and her collaboration on H.R. 1943, 
the Stop AIDS in Prison Act of 2007. I introduced a similar 
bill in the last Congress, and I am pleased to be a cosponsor 
again with Representative Waters in this Congress.
    The problem of HIV and AIDS in Federal and State prisons is 
difficult to measure because inmates are not routinely tested. 
There are 170,000 prisoners in the Federal system. In a 2006 
report, the Justice Department estimated that almost 2 percent 
of State prison inmates and over 1 percent of Federal inmates 
were known to be infected with HIV.
    As a percentage, this puts the occurrence of HIV and AIDS 
among inmates in Federal prison three times higher than within 
the general population of the United States.
    The cost of an HIV screening is between $6 and $15 per 
test. So requiring that Federal inmates be tested when they 
enter prison and when they leave prison is just good, common, 
practical sense.
    H.R. 1943 requires HIV testing for all Federal prison 
inmates upon entry and prior to release and for all existing 
inmates within 6 months of enactment. Identifying inmates who 
are infected allows prison officials to take the precautionary 
measures necessary to protect the health and safety of prison 
employees and other inmates. This also ensure that medical 
treatment can be administered to inmates suffering from the 
disease.
    Finally, both the inmates themselves and the community they 
rejoin upon release will obviously benefit from the inmate 
knowing his status.
    I look forward to our hearing today.
    Mr. Chairman, before I stop I want to tell a quick story, 
and I mean this as a compliment to Maxine Waters, the 
congresswoman from California.
    Mr. Scott. You have to explain that it is a compliment? It 
may not sound like a compliment, but here we go. [Laughter.]
    Mr. Smith. I will certainly yield to her when I am 
finished, but I think that she will corroborate the story.
    And that is, in the last Congress and frankly in the last 
revision that occurred in Texas, I picked up the east side of 
San Antonio, which is a predominantly Black community. And I 
started listening to what I was hearing and trying to respond 
to the suggestions that I was getting and the needs that I was 
witnessing and hearing about as well.
    And so I looked around and saw that a bill such as the one 
that we are considering today had been considered, and I 
explored it some more. And I went to someone who is a personal 
friend as well as a colleague, Maxine Waters, and we decided to 
introduce this bill ourselves in the last Congress. We were the 
two primary cosponsors.
    Little did I know that things were going to change so 
dramatically in the election, but it is an indication of I 
think Ms. Waters' sincerity and hopefully my cooperation that 
regardless of who is in the majority, we thought the issue was 
so important and needed to be addressed, that we would continue 
to do so and approach the subject in a bipartisan way, which in 
fact has occurred.
    So I want to thank her, both for her help in the last 
Congress and for her instrumental help in this Congress as 
well, trying to achieve what we want to achieve.
    And, Mr. Chairman, I will yield the balance of my time, 
such as it is, to the congresswoman from California.
    Mr. Scott. With a comment like that, we will give the 
gentlelady from California equal time. [Laughter.]
    Ms. Waters. Mr. Chairman, just let me take a moment to 
thank you for holding this hearing today and our Ranking 
Member, Mr. Randy Forbes.
    And, of course, I want you to know that not only is Mr. 
Lamar Smith one of the original cosponsors of my legislation--
along with John Conyers, yourself, Mr. Forbes, Ms. Lee and 
Donna Christensen--every time I see him in the hall, he asks 
me, ``When is our bill coming up?'' And so, today you have 
answered the question that has been asked of me time and time 
again. He has been anxious to get on with this legislation, and 
I appreciate his interest and his passion about this subject.
    And I just look forward to hearing from our witnesses 
today.
    And while I have the microphone, let me just say that in 
addition to my bill, the Drug Endangered Children Act of 2007 
is extremely important.
    We have a Member who is here today who is going to talk 
about his passion related to this issue, the children that are 
endangered by methamphetamine, and I think that he has a 
compelling story to tell about what he knows about the subject. 
And so, I am anxious also to hear from him today, and I just 
thank him for the time that he has been putting in.
    Thank you, Congressman Cardoza, for taking time to provide 
leadership on this issue.
    And I yield back the balance of my time.
    Mr. Scott. Thank you.
    And, without objection, if the others will submit their 
statements for the record, we have a distinguished panel with 
us today to consider important issues that are currently before 
us.
    The first will be Representative Dennis Cardoza, who will 
testify on H.R. 1199.
    Representative Cardoza is in his third term representing 
the 18th Congressional District of California. He is the 
Chairman of the Agriculture Committee Subcommittee on 
Horticulture and Organic Agriculture. In 2007 he joined the 
Rules Committee, and he also serves on the Democratic Steering 
and Policy Committee.
    Before coming to Washington, he served a term on the 
Atwater City Council and was later appointed to the Merced City 
Council, where his duties provided invaluable experience in 
dealing with a wide range of important local and county issues.
    The remainder of the witnesses will be testifying on H.R. 
1943.
    Our first witness on the bill will be Mr. Devon Brown, who 
is the director for the District of Columbia Department of 
Corrections. He has more than three decades of experience in 
the congressional field. He recently returned to D.C. 
government from the state of New Jersey, where he was the 
commissioner of corrections from April 2002 to January 2006. 
Before his tenure as commissioner for the New Jersey 
Corrections, he served as deputy trustee of the Office of 
Corrections for the District of Columbia. During that time, he 
also served as interim director for the Department of 
Corrections for 6 months.
    The next panel member will be Mr. Vincent Jones. Mr. Jones 
has been the executive director of the Center for Health 
Justice since December of 2006. In his role, he oversees 
programmatic development, manages development activities and 
oversees the agencies capacity to fulfill its mission to 
empower more people affected by HIV and incarceration. He has 
more than 15 years' experience in strategic planning, 
fundraising, organizational positioning, programmatic 
development and management teams.
    Our third panel member is Philip Fornaci. He, in August 
2003, became the director of the D.C. Prisoners Legal Services 
Project. In 2006 that project was merged with the Washington 
Lawyers Committee for Civil Rights and Urban Affairs, where he 
took over as director of the new organization. He litigates on 
behalf of prisoners in both D.C. jails and Federal institutions 
while also managing the project's public affairs efforts, with 
a particular interest in civil rights of ex-offenders and the 
treatment of people with disabilities within the criminal 
justice system.
    Our fourth panel member is Rear Admiral Newton Kendig, M.D. 
He is the assistant director of Health Services Division, U.S. 
Bureau of Prisons, since August of 2006. He is a fifth-
generation graduate of Jefferson Medical College in 
Philadelphia. He completed his residency in internal medicine 
at the University of Rochester and subspecialty training in 
infectious diseases at Johns Hopkins in 1991, where he later 
joined the faculty. He subsequently served as medical director 
of the Maryland Department of Corrections and Public Safety for 
5 years.
    Our final panel member is going to be introduced by the 
gentleman from Texas.
    Mr. Smith. Mr. Chairman, thank you for another opportunity 
today to go out of order. It is appreciated.
    I am honored to introduce Willie Mitchell, chairman of San 
Antonio Fighting Back, who is from our hometown of San Antonio, 
Texas.
    Mr. Mitchell has had a distinguished career in business, 
community service and politics. He currently serves as chair of 
San Antonio Fighting Back, Inc., sits on the United Way of San 
Antonio and Barrett County Board of Trustees and on the San 
Antonio Water Board, as well as many other committees and 
boards, including the Community Anti-Drug Coalition and the 
America Greenhouse Coalition.
    Mr. Mitchell ran for the San Antonio City Council in 1979. 
He has served as an active member of the Texas Council on Crime 
and Delinquency and has appeared on the ``Today'' show, 
representing the Center for Educational Development, teaming 
the athletic peer group. He has also appeared on ``Texas 
Epidemic'' in San Antonio, Texas, and is a recipient of the San 
Antonio Distinguished Citizen Award.
    Mr. Mitchell attended Tennessee A&I State University in 
Nashville, Tennessee, and upon graduation was drafted by the 
Kansas City Chiefs, National Football League, in 1964. Mr. 
Mitchell played in the first Super Bowl in 1966 and was a 
member of the Kansas City Chiefs team that won the 1969 Super 
Bowl.
    Mr. Chairman, I just want to say about Willie Mitchell, 
beyond what I just said and beyond the organizations that he is 
a member of, he is literally a hero to many of us in San 
Antonio. He is known throughout the community for his good 
works, for his good words, for his talks that inspire so many 
young people across the board. And it is just nice that he was 
able to make the time and come up from San Antonio today to be 
able to testify before our Committee.
    As I say, there aren't many genuine heroes we have these 
days, particularly those who are living among us, but Willie 
Mitchell is one of those in San Antonio.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you. Thank you, Mr. Smith.
    Each of the witnesses' written testimony will be made part 
of the record in its entirety, and I would like each of the 
witnesses to summarize his or her testimony in 5 minutes or 
less.
    I think the timer is working. If it is working, the green 
light will come on. When 1 minute is left, the yellow light 
will come on. And when the red light comes on, that indicates 
that your time has pretty much expired.
    We are going to begin with Congressman Cardoza at this 
time.
    And we can take your testimony and then if there are any 
questions, and then the rest of the hearing will be on the 
other bill.
    Mr. Cardoza?

TESTIMONY OF THE HONORABLE DENNIS CARDOZA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardoza. Thank you, Mr. Chairman. Thank you for 
inviting me here today.
    You and your Committee have accomplished a great deal for 
the American people in the short time since you have taken over 
as Chair, and I admire your commitment to making our Nation's 
communities safer.
    Thank you for your interest in my bill. I appreciate all 
the comments of Mr. Forbes and Mr. Smith and Ms. Waters.
    I come here today to testify about an issue that is very 
close to my heart: drug endangered children.
    Drug trafficking and addiction have had a harrowing effect 
on children across this country, contributing to domestic 
violence, abuse, and neglect. According to a recent Health and 
Human Services study, over 1.6 million children live in a home 
where at least one parent abuses illicit drugs, including 
cocaine, methamphetamine, heroin, and prescription drugs.
    I am especially concerned about the impact drug abuse is 
having on the foster care system. Seven years ago, my wife 
Kathy and I adopted two foster children, Joey and Elena. It is 
a little difficult for me at this time to refer to them as 
foster children, because after 7 years of being in our home and 
being part of our family, they are our children, not foster 
children. But in any case, they were at one time foster 
children.
    It was truly an eye-opening experience for both Kathy and 
I, and I was inspired to become an advocate for improving the 
lives of foster kids. It breaks my heart that in communities 
across this country drugs like methamphetamine are harming 
innocent children and over-burdening the foster care system.
    Methamphetamine is particularly dangerous for children 
because parents set up meth labs in their homes. These labs are 
highly toxic and susceptible to fires and explosions. 
Tragically, according to the Drug Enforcement Administration, 
children are found in over 20 percent of all meth labs seized.
    It is well-documented that children exposed to drug abuse 
are more emotionally traumatized than other foster children and 
often have serious drug-related health problems. For these 
reasons, drug endangered children present unique challenges to 
the system. In fact, according to a National Association of 
Counties study, 69 percent of county social service agencies 
are working to develop special training procedures and 
protocols to help children with methamphetamine-addicted 
parents.
    I recently introduced the Drug Endangered Children Act of 
2007 to address the challenges nationwide. The legislation 
would reauthorize the Department of Justice to make $20 million 
grants for drug endangered children for fiscal years 2008 and 
2009. The Drug Endangered Children program was originally 
authored as part of the Patriot Act reauthorization, but money 
was never appropriated.
    Last June during the consideration of the Science, State, 
Justice and Commerce appropriations bill, I offered an 
amendment to provide $5 million for the program for fiscal year 
2007. The amendment passed with bipartisan support, but the 
funding was not included in the continuing resolution adopted 
this year when the underlying bill from last year didn't pass 
through the Committee process.
    The Drug Endangered Children's grants are designed to 
improve coordination among law enforcement, prosecutors and 
child protection services to help transition drug endangered 
children into a residential environment and as-safe-as-possible 
custody as soon as possible.
    The Byrne JAG and COPS programs have proven that grants to 
local law enforcement, other government agencies are extremely 
effective in taking public policy and tackling public safety 
problems. The Drug Endangered Children program would operate in 
a similar manner to these highly successful Justice Department 
programs by funding coordination across jurisdictions to 
address the needs of drug endangered children. In addition, 
these grants would leverage the Federal Government's investment 
by offering an incentive for local governments to invest their 
own money to confront this growing epidemic.
    I want to again thank you, Mr. Chairman, for the 
opportunity to present my testimony today. I strongly believe 
that the Drug Endangered Children Act would improve the lives 
of the more than 1.6 million children across the country 
impacted by parental drug abuse. I urge the Subcommittee to 
support this legislation.
    And as you mentioned earlier, Mr. Chairman, you have 
already supported legislation that would build on this in the 
Native American Meth Act, and without this underlying 
legislation, the legislation you passed earlier this year 
wouldn't have any impact.
    [The prepared statement of Mr. Cardoza follows:]
Prepared Statement of the Honorable Dennis Cardoza, a Representative in 
                 Congress from the State of California
    Thank you, Mr. Chairman for inviting me here today. You and your 
committee have accomplished a great deal for the American people in the 
short time since you have taken over as Chairman of the Subcommittee on 
Crime, Terrorism, and Homeland Security, and I admire your commitment 
to making our nation's communities safer.
    I am here today to testify about an issue that is close to my 
heart: drug endangered children. Drug trafficking and abuse have had a 
harrowing effect on children across our country, contributing to 
domestic violence, abuse, and neglect. According to a recent Health and 
Human Services study, over 1.6 million children live in a home where at 
least one parent abuses illicit drugs, including cocaine, 
methamphetamine, heroin, and prescription drugs.\1\
---------------------------------------------------------------------------
    \1\ Department of Health and Human Services, Office of Applied 
Studies. ``The National Survey on Drug Use and Health.'' 2004.
---------------------------------------------------------------------------
    In my district in the Central Valley of California, I have seen the 
devastating impact of methamphetamine on children's lives. While 
visiting schools in my area, I have been told by teachers and 
administrators that a significant proportion of students have a parent 
or relative who abuses meth. I am positive that similar stories can be 
told in other parts of the country where drug abuse is rampant.
    I am especially concerned about the impact drug abuse is having on 
the foster care system. Seven years ago, my wife Kathy and I adopted 
two foster children--Joey and Elena. It was truly an eye-opening 
experience for both of us, and I was inspired to become an advocate for 
improving the lives of foster kids. This year I introduced legislation 
to provide Medicaid coverage for foster kids with mental health 
problems who age out of the foster care program. Also, I am planning on 
introducing legislation to guarantee that every foster child has a 
Court Appointed Special Advocate (CASA)--a vital step to improving 
outcomes for children in foster care. Without a doubt, one of the most 
serious challenges facing the foster care system is parental drug 
abuse. In communities like mine across the country, drugs like 
methamphetamine are affecting innocent children and overburdening the 
foster care system.
    Meth is extremely dangerous for children not only because meth 
addicts are more likely to abuse and abandon their children, but also 
because meth-addicted parents often set up meth labs in their homes. 
These labs are highly toxic and susceptible to fires and explosions and 
therefore place innocent children in physical danger. In my district, 
children have been found at labs with burns from spilled ingredients 
from the methamphetamine production process. In addition, there is a 
high risk of lasting health damage from toxic fume inhalation. 
Tragically, according to the Drug Enforcement Administration (DEA), 
children are found at 20 percent of all meth lab seizures.\2\
---------------------------------------------------------------------------
    \2\ Swetlow, Karen. ``Children of Clandestine Methamphetamine Labs: 
Helping Meth's Youngest Victims.'' 2003: p. 3.
---------------------------------------------------------------------------
    *ERR13*Drug endangered children present unique challenges for law 
enforcement agencies, prosecutors, child protective services, social 
service agencies, health care providers, and other government entities. 
These children are often traumatized and abused, and they require 
special attention and care to transition into a safe and healthy 
residential environment. According to a survey released by the National 
Association of Counties, 69 percent of responding officials from county 
social service agencies indicate that their counties have had to 
provide specialized training for their welfare system workers and have 
had to develop special protocols for workers to address the special 
needs of children displaced by parental meth abuse.\3\
---------------------------------------------------------------------------
    \3\ National Association of Counties. ``The Meth Epidemic in 
America: The Impact of Meth on Children.'' July 5, 2005: p. 10. 
Available at http://www.naco.org/Template.cfm?Section=Meth--Action--
Clearinghouse&template=/ContentManagement/
ContentDisplay.cfm&ContentID=17216.
---------------------------------------------------------------------------
    I recently introduced the Drug Endangered Children Act of 2007 
(H.R. 1199) to address the challenges facing children abandoned, 
neglected, or abused by parents addicted to illicit drugs. The 
legislation would authorize the Department of Justice to make $20 
million in grants for drug endangered children for Fiscal Years 2008 
and 2009. The grants are designed to improve coordination among law 
enforcement, prosecutors, children protection services, social service 
agencies, and health care providers to help transition drug endangered 
children into safe residential environments.
    Grants to local law enforcement and other local government agencies 
are extremely effective in tackling public safety problems in 
communities across the country. The Community Oriented Policing 
Services (COPS) program has been critical in reducing crime across the 
country. The Edward Byrne Memorial Justice Assistant Grant program is 
another example of a program that empowers state and local governments 
to fight crime and respond to emerging public safety threats.
    The Drug Endangered Children (DEC) program would operate in a 
similar manner to these highly successful Justice Department programs. 
By funding coordination across jurisdictions and among several 
different types of government agencies, the DEC program would foster 
cooperative efforts to address the needs of children affected by drug 
abuse. These grants would leverage the federal government's investment 
by offering an incentive for local government to invest their own money 
in confronting this important problem.
    This legislation renews the authorization for the Drug Endangered 
Children program originally included as part of the USA PATRIOT 
Improvement and Reauthorization Act of 2005 (P.L. 109-177). Last June 
during the consideration of the Departments of Commerce and Justice, 
Science, and Related Agencies Act of 2006 (H.R. 5672), I offered an 
amendment to provide $5 million for the program in Fiscal Year 2007. 
The amendment passed by voice vote, but the funding was not included in 
the Continuing Resolution adopted earlier this year.
    The Drug Endangered Children Act of 2007 represents a continuation 
of the work of the Subcommittee on Crime, Terrorism, and Homeland 
Security this year. On February 6, 2007, the Subcommittee reported out 
the Native American Methamphetamine Enforcement and Treatment Act of 
2007. A central provision of this legislation is to extend Drug 
Endangered Children grants to tribes and territories. This provision is 
irrelevant without the reauthorization of the DEC program itself. H.R. 
1199 builds on the prior work of the Subcommittee to help Native 
American communities devastated by the methamphetamine epidemic.
    Thank you, Mr. Chairman, for the opportunity to present my 
testimony to the Subcommittee on Crime, Terrorism, and Homeland 
Security. I strongly believe that the Drug Endangered Children Act of 
2007 would improve the lives of the more than 1.6 million children 
across the country impacted by parental drug abuse. I urge the 
Subcommittee to support this legislation.

    Mr. Scott. Thank you very much.
    Are there any questions for Mr. Cardoza?
    Mr. Forbes?
    Ms. Waters?
    Ms. Waters. Mr. Chairman and Members, I certainly support 
this legislation, and I thank Congressman Cardoza again for his 
leadership on this issue.
    We have all heard many stories about the unfortunate 
situations where children find themselves in homes sometimes 
with both parents using meth or----
    Mr. Scott. If the gentlelady would yield for just a minute?
    We want to recognize the presence of the gentleman from 
North Carolina, Mr. Coble, and the gentleman from Georgia, Mr. 
Johnson, who are also present with us today.
    You can continue. Sorry.
    Ms. Waters. That is all right.
    We have heard these horror stories about children who are 
abandoned or children who are placed at great risk because they 
are unfortunate enough to end up in these situations. And even 
though it is not well-known among the Members of even Congress 
and perhaps the public, I know that Congressman Cardoza has a 
special experience with this situation of children who were at 
risk because of their parents having been on methamphetamine.
    And I would just like to ask you if the children that you 
have knowledge of are safely being cared for now?
    Mr. Cardoza. Well, it varies, Ms. Waters. And thank you for 
your recognition.
    When we got our children from the foster care system, they 
had been abandoned by their mother, who was a methamphetamine 
addict. They were in foster care, being somewhat abused for a 
second time, and a CASA volunteer saved our kids, a 
kindergarten teacher that recognized that my son was under 
severe stress and could see it in the classroom.
    We were lucky and our children were lucky. We were lucky to 
get them. They are wonderful kids. They will be great adults if 
we don't--I often joke, if we let them live that long, they 
will be great adults. Like any kids, they are persnickety and 
get into mischief. But we love them deeply, and they are in a 
great situation now.
    But the impact from the years that they were in a bad 
situation still affects their lives, even though they are 13 
and 10 now. That impact continues. Even though they have got a 
nurturing mother and a father that take care of them and love 
them, there are impacts that reside inside them that affect 
them to this day.
    I am personally aware of two children that were taken out 
of a meth lab about a mile from my home. When they removed 
these children, they were covered in red phosphorus and their 
teddy bears literally had to be considered hazardous materials 
and were taken away in Hazmat bags by men in white suits, 
because they were so contaminated and dangerous. The children 
were literally little toxins. They were taken to the hospital 
to be decontaminated.
    And when you see those kinds of experiences, you know the 
effect of methamphetamine on parents causes parents to simply 
abandon the kids. And especially if they have been taken the 
drugs during pregnancy, while the drug can have an effect on 
the child physically, the emotional lack of attachment that the 
parent has, because they oftentimes abandon newborns and 
things, is something that early child development practitioners 
will tell you has a lifelong effect on this young people that 
were abandoned.
    That is why the counties are having such trouble dealing 
with some of the after-effects of this, and I really appreciate 
your question. I am very passionate about this subject, and I 
know the money will be well-spent if we can direct it this way.
    Ms. Waters. Thank you very much.
    Mr. Scott. Thank you.
    Mr. Smith?
    Mr. Johnson?
    Mr. Johnson. I wish to commend you, Representative Cardoza, 
for this measure to extend this act, which would provide $20 
million per year for children who have been adversely impacted 
by their drug environments. If we don't pay now, we will 
certainly pay later. And $20 million compared to $97 billion is 
a small amount when it goes toward helping children. So you are 
to be commended.
    I have only talked with you a couple of times since I have 
been in Congress, and my idea of you is of someone who is very 
stern and focused and that kind of thing. But to hear you and 
your wife have taken in foster children who were challenged 
gives me a different perspective on your character. So I look 
forward to getting to know you better and thank you so much for 
your service to your country in that regard.
    Mr. Cardoza. Thank you, Mr. Johnson.
    Mr. Scott. Does the gentleman want equal time? [Laughter.]
    Mr. Cardoza. I will do some soul searching about my 
sternness.
    The reality is there are a great deal of young people that 
are put--you know, 1.6 million people are affected in some way; 
500,000 children are in foster care at any given time in the 
United States; 118,000 are up for adoption.
    There is a disproportionate number of children in the 
African-American community vis-a-vis the population. They 
comprise about 15 percent of the population and 39 percent of 
those waiting for adoption.
    We have a lot of work to do on this issue, but the counties 
and the locales that are dealing with this, in some cases 
cities, really need to help in developing special protocols. 
These are special kids with special needs, and I think that 
this money will go to developing those programs that can be 
used disseminated throughout the country to solve the problem.
    I thank the Chairman.
    Mr. Scott. Thank you.
    If there are no other questions, thank you, Mr. Cardoza, 
and we will excuse you at this point.
    Thank you for introducing this bill. The children you are 
talking about are at the highest risk of getting in trouble, 
and any investments we can make before they get in trouble will 
go a long way, as the gentleman from Georgia has indicated.
    As you have heard, we have got several votes, at least 
eight votes. So it is going to be some time. We will get back 
as soon as we can, but it will be at least a half an hour 
before we can get back. So we will get back as soon as we can 
and continue with the hearing.
    We are in recess.
    [Recess.]
    Mr. Scott. The Committee will come back to order.
    Representative Forbes is detained but specifically asked me 
to continue, so we will continue with the hearing.
    And I understand that the witnesses have been informed that 
Mr. Mitchell is on a time crunch. And we would ask him to 
testify at this point.
    Mr. Mitchell, you are recognized for 5 minutes.

   TESTIMONY OF WILLIE MITCHELL, CHAIRMAN OF THE BOARD, SAN 
             ANTONIO FIGHTING BACK, SAN ANTONIO, TX

    Mr. Mitchell. Thank you, Mr. Chairman.
    Let me say first of all, I am clearly elated to be here, 
and I appreciate the opportunity to come before you and your 
Committee to give some impact to the problem with HIV/AIDS to 
those who have been incarcerated and to those who are being 
incarcerated.
    From my perspective, I have worked with the Three Rivers 
Federal Penal Institution in Three Rivers, Texas, and the thing 
that I think is so unique is that this bill that you have 
designed and put together, I think everything that I know, as a 
practitioner and out in the community, everything is being 
addressed.
    The one thing that I know is beneficial is that those who 
come from those communities that really have the AIDS virus or 
have the potential of getting the AIDS virus and going into the 
penal institution, I think if tested before, that will help to 
serve and make sure that the finances to make sure that the 
people who have AIDS going in get the treatment that is 
necessary and reduce the problem with those who are 
incarcerated to where there are more people coming in with that 
same virus.
    And for those that are inside the prison, if they are not 
tested to see, then it just continues to spread and it will be 
widely known as they come out. If they are coming out with the 
virus and haven't been tested, that is not good for the 
community either, because the community is going to have to 
suffer and pay for that type of testing and the medicine that 
is needed. So the bill will certainly help those who are 
incarcerated, those who are not incarcerated.
    And from my perspective, I have a grant right now that is 
from the Center for Substance Abuse and Mental Health Service 
Administration, SAMHSA, and the Center for Substance Abuse 
Prevention, CSAP, and right now just what you are talking about 
we want to see being done for them, I am doing it already for 
the public.
    So if we can do it, and SAMHSA has the need to show that it 
is needed and necessary for the general public, why shouldn't 
we do it for those who have been incarcerated? That is one of 
the issues that I think makes it so unique and special.
    And we are doing free testing. So why wouldn't the Federal 
Government want to test these people before they enter the 
penal institution?
    That is why I am so strong and I feel so good about it, is 
because I am there, I am in the community.
    And within the penal institution you must realize that 
there will be some type of sexual activity going on among these 
men. If you don't test to make sure and then give them the 
information that is needed so that if I know what the 
possibilities are and the information is being given to me or 
we will looking at it, then we have a better chance of 
preventing it.
    But if we do the laymen thing and act as though it is not 
going to happen and say, well, we will deal with that later, 
then the penal institutions have the problems with the medical 
part of it, and then as they come out to the public, there is 
another problem.
    So I think the bill will serve not only the penal system, 
but it will serve the community to let them know that we are 
doing this testing to make sure that if a person has this 
virus, at least we will test to find out, so that we will have 
some indication of what is going in and what is going out.
    And then I have transitional housing, where I have 
transitional housing for those that come out of the penal 
institution. So when we talk about jobs and opportunities for 
them, the first thing they want to know, well, do they have any 
ailments, do they have any sicknesses, have they been tested 
for this. That is the first thing the employer wants to know. 
So if you do that and test them before they come out, then that 
means that also we save again, because they may have a better 
opportunity to get a job.
    So I am much in favor of it, and I appreciate the fact of 
being able to come and at least make the testimony before you, 
because I know that this is an important step in trying to make 
sure that we address this issue.
    That is basically about all I have to say about it. It is 
just that it is something that is needed. I appreciate the fact 
that you all are taking the initiative to put forth this bill. 
And I hope that anything that we can do and say in our 
community will help you.
    [The prepared statement of Mr. Mitchell follows:]
                 Prepared Statement of Willie Mitchell
    In 2006, the HIV/AIDS virus pandemic reached a milestone our world 
hoped it never would; 25 years of existence. The HIV/AIDS virus is one 
that has touched lives from all backgrounds regardless of class, race, 
gender, or geographic location. While there are many factors which 
contribute to the number of men and women infected with HIV/AIDS virus, 
those individuals who are or have been incarcerated are not to be 
excluded. According to an unpublished report done by the U.S. 
Department of Justice in a report done in 2002 titled Disease Profile 
of Texas Prison Inmates; ``. . . study shows that for a number of 
conditions, the prison population exhibited prevalence rates that were 
substantially higher than those reported for the general population.'' 
\1\ Upon entry into the Texas Department of Criminal Justice (TDCJ) 
system for any duration of time, all inmates receive a medical and 
mental health examination; however it does not currently include 
testing for the HIV/AIDS virus.
---------------------------------------------------------------------------
    \1\ Disease Profile of Texas Prison Inmates Pg. 4-5, Baillargeon, 
Jacques Ph.D., Black, Sandra A. Ph.D., Dunn, Kim M.D., and Pulvino, 
John P.A.
---------------------------------------------------------------------------
    Therefore it would only be prudent for the state to do so in order 
to take a proactive approach and reduce the number of individuals 
infected along with the potential of infecting others with the HIV/AIDS 
virus. ``. . . infection with HIV was more common among black females 
than among either white or Hispanic females.'' \2\ The need for testing 
before and after incarceration is not only a social injustice; however 
it also has the potential to be an economic injustice. Social in the 
sense that individuals infected with the virus who are from low income 
backgrounds can only create future financial responsibilities to the 
state in addition to the country. Economic in the sense that it costs 
the state thousands of dollars each year to provide health care, 
medications, housing, along with other welfare benefits; all at the 
expense of both the state and the country. The federal government 
cannot wait for individuals to become infected with this virus; it must 
act now and address the issues with a proactive mentality. The report 
further indicates that, ``the high rates of HIV among prison 
populations are attributable to high-risk behaviors in which a number 
of criminals reportedly engage prior to incarceration. For example, 40 
to 80 percent of prison inmates are reported to have used intravenous 
drugs.'' ``Eleven percent of incarcerated men are reported to have had 
sex with a prostitute, while between two and group percent are reported 
to have engaged in bisexual or homosexual relationships.'' \3\ The lack 
of mandatory HIV/AIDS screening process in place within the TDCJ system 
during the study period may likely contribute to the underestimation of 
the actual cases that exist. The absence of a clear understanding of 
the number of cases is a danger not only to the individual who is 
infected, the community at large, and the many correctional facility 
professionals whose lives are at risk if an individual does not know 
their status. Furthermore, ``research indicates the following factors 
may contribute to prisoners' excess disease prior to incarceration: low 
socioeconomic status, poor access to health care in their home 
communities, and high risk behaviors. Following incarceration, a number 
of environmental factors including crowded living conditions, lack of 
temperature control, poor sanitation, and increase psychological stress 
may further contribute to excess disease among inmates.'' \4\
---------------------------------------------------------------------------
    \2\ Ibid Pg. 7
    \3\ Ibid Pg. 10
    \4\ Ibid Pg. 12
---------------------------------------------------------------------------
    Testing inmates for the HIV/AIDS virus is one of many that is 
needed to ensure the health and wellness of the incarcerated population 
and correction facility professionals who serve them everyday. The 
Hepatitis virus is another fatal illness that is often associated with 
high risk populations of which many incarcerated men and women are. The 
report also made reference to the increase rates of the transmittal of 
the Hepatitis virus through risky behavior such as multiple partners, 
male to male sex, and intravenous drugs. Currently in the state of 
Texas, it is a challenge to receive testing and aftercare in the event 
an individual becomes infected; this virus equally deserves the 
attention of our state and national government.

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you very much, Mr. Mitchell.
    Let me just ask you one quick question; we usually defer 
questions until the end. But in your experience and education, 
how do you make sure that inmates actually learn the material, 
particularly when you consider that it has to be presented in a 
culturally sensitive manner?
    Mr. Mitchell. Well, the culturally sensitive manner, I 
don't have a problem with that, because I think with the virus 
as deadly as it is, if we don't do it, then we are not serving 
the community. I don't think that you can make this an easy 
thing to say. I don't think there is a special way to do it.
    I think that because they have been incarcerated and for 
what the problems are while you are incarcerated, I think you 
have to have more education in terms of educating the inmates 
to it and putting out or disseminating information that they 
can read, such as pamphlets. They have a lot of down time, 
where at night they could read the pamphlets about the AIDS 
virus and what it causes.
    So I think if there is some information given to them, that 
they can readily read--on bulletin boards. We all know the best 
way to get a product sold is through advertising, so if we want 
to sell this product, why don't we advertise it within the 
penal institution? And I think that is just a good business 
principle, that if you want to have some results, advertise it 
within the penal institution so that they will know what the 
cause and effects are.
    Mr. Scott. Thank you.
    Ms. Waters, do you have any questions for Mr. Mitchell? He 
has a plane to catch. He will be leaving.
    Ms. Waters. No. I want to thank Mr. Mitchell very much. I 
did have an opportunity to talk with him a little bit earlier 
when I was here. You were over there, and I should have been 
over there too.
    However, I do thank you for being here today, and I 
certainly appreciate the work that you are doing and for your 
particular knowledge about what is going on in our prisons.
    You are there. You see the inmates. You have a sense of how 
information is disseminated. You have enough knowledge about 
this to know that they can benefit from this program that we 
are trying to institute to save lives and to save the lives of 
mates on the outside.
    So I just thank you for being here today and coming from so 
far to share this testimony with us. Thank you.
    Mr. Mitchell. Ms. Waters, I appreciate that.
    It is one thing to know that within our community, within 
the African-American community, this virus has escalated, and 
the fact of the matter is that we need to make sure that there 
is an awareness brought about, and if we don't do that, then 
the virus continues to happen. Nobody will take the fact that 
we need to do something.
    And I think this is one step in saying that within the 
penal system, we are going to do something. And I think from 
the Federal level, it says a lot about you all as Members of 
the Committee who are trying to allocate money for it. The 
States may have a difficult time, but I think from a Federal 
standpoint you all are doing an exciting job in doing this.
    And I would just ask all of you, go visit a Federal penal 
institution, and it will help you to make some good choices on 
what is going on there. It may be a system that we have to 
house people that have committed certain crimes, but they do a 
tremendous job in trying to rehabilitate those people and give 
them an opportunity for other jobs as they come out so that 
they can become productive citizens. It is a wonderful system, 
and I wish the States would adopt some of the things that we do 
in the Federal institutions.
    Ms. Waters. Thank you very much.
    Mr. Scott. Thank you.
    Visit the prisons is on our agenda. Mr. Forbes and I are 
looking for prisons to visit right now, and we expect there to 
be more than one. So thank you for that recommendation.
    Mr. Mitchell. Thank you, Mr. Chairman.
    Mr. Scott. Mr. Brown, you are recognized for 5 minutes.

 TESTIMONY OF DEVON BROWN, DIRECTOR, DEPARTMENT OF CORRECTIONS 
          FOR THE DISTRICT OF COLUMBIA, WASHINGTON, DC

    Mr. Brown. Good afternoon, Mr. Chairman and Members of the 
Subcommittee. I am Devon Brown, director of the District of 
Columbia Department of Corrections.
    I appear before you today as a 33-year correctional 
executive whose experience includes leadership at both the 
State and local levels within Maryland, New Jersey and the 
District of Columbia correctional systems. I do so in firm 
support of House Resolution 1943.
    Having spent the entirety of my career as a public servant 
in the proud membership of the correctional profession, I am 
acutely aware of the many challenges and demands of its 
operations and gravity of responsibilities.
    Having functioned as the director of the Montgomery County 
Department of Corrections and Rehabilitation in Maryland, 
warden of two of Maryland's maximum security institutions and 
as a forensic psychologist, I have faced many concerns and 
issues existing within prison walls but ultimately having 
impact upon all of society. None are more important than those 
addressed by H.R. 1943 as it recognizes the growing interface 
between public safety and public health.
    This bill, like similar ones enacted throughout the 
country, recognizes the critical significance of diagnosing, 
educating and treating, where appropriate, all inmates for HIV/
AIDS as they enter, reside within and leave prison gates.
    The proposed legislation understands that, as we speak, 
over 2.2 million prisoners are currently incarcerated within 
our country's prisons and jails with over 600,000 of them 
returning to our communities each year. These individuals will 
be re-establishing themselves in our villages, our hamlets and 
neighborhoods, with many securing employment in fields 
requiring routine and close interaction with the public.
    Of acute concern is the realization that approximately 3 to 
5 percent of them will be released from confinement with HIV 
and AIDS, a statistic which is five times the rate of 
prevalence in the general population.
    These individuals will return to their families, resituate 
themselves and resume their lives infected with a highly 
pernicious, destructive and contagious disease. Many will be 
unaware that they are the host of this acutely devastating 
virus, nor will they know that their disorder has the potential 
of being innocently passed on to unsuspecting others both 
within and outside of prison gates.
    H.R. 1943 endeavors to promote public health for all of the 
country by ensuring that inmates are automatically tested for 
HIV and AIDS upon commitment to Federal custody, educated about 
the disease and treated. Moreover, they are again tested upon 
completing their term of incarceration.
    These provisions are consistent with the Centers for 
Disease Control recommendations and those of several other 
jurisdictions, among them the District of Columbia. As a means 
to offset the fiscal resources necessary to implement this 
legislation, funding is available through SAMHSA with guidance 
provided by the CDC.
    As correctional systems take on an increasing and more 
vital role in promoting the vibrancy of our communities, their 
efforts must include doing more to contain the spread of HIV 
and AIDS. Inasmuch as 90 percent of all HIV-positive cases 
detected in prisons reportedly involve those who have 
contracted the infection prior to incarceration, the proposed 
legislation will also play an important role in protecting the 
health of the brave men and women who serve the people of this 
country each day through their employment within correctional 
facilities.
    By diagnosing, educating and treating the inmate population 
who possess the disorder, it is less likely to be spread to 
prison staff as well. House Resolution 1943 recognizes this 
necessity. Its enactment is in the best interest of our 
correctional systems and the public they serve.
    In recognition of this reality, last June the District of 
Columbia Department of Corrections became the first municipal 
detention facility in the United States to comprehensively 
expand its existing inmate health care services to address the 
HIV pandemic by integrating automatic HIV testing into its 
routine medical intake operations and release procedures.
    As most correctional systems test for HIV under limited, 
voluntary conditions, our approach in automatically testing all 
detainees at the front and back end of incarceration is highly 
congruent if not identical with the elements of H.R. 1943 and 
stands as indisputable evidence of the feasibility as well as 
success of these procedures.
    Our condom distribution program, implemented during the 
early 1990's, was likewise one of the first initiatives of its 
kind in the Nation and complements our automatic HIV testing 
strategy by contributing to the deterrence of the disease's 
transmission. The condom distribution initiative began at a 
time when only a handful of correctional systems supported such 
a response to controlling HIV in correctional settings.
    It is important to note that while our departmental policy 
strictly prohibits sexual activity among inmates, the HIV/AIDS 
issue is considered more insidious than the consequences 
resulting from inmates committing consensual sex-related 
infractions.
    In conclusion, I leave you with these observations made in 
1929 by the National Society for Penal Information, as conveyed 
in a publication entitled, ``Health and Medical Service in 
American Prisons and Reformatories,'' by F.L. Rector. And I 
quote: ``Viewed from whatever angle, whether social, economic, 
administrative or moral, it is seen that adequate provision for 
health supervision of the inmates of penal institutions is an 
obligation which the State cannot overlook without serious 
consequences to both the inmates and the community at large.''
    These resounding words are as true today as when related 
over 7 decades ago. As it relates to HIV/AIDS transmission, the 
health of our Nation shall be greatly influenced by the manner 
in which we address our prisons.
    House Resolution 1943 affirms this truth. Recognizing the 
profound importance that this bill will have in furthering the 
health of all citizens, I enthusiastically support its passage.
    Mr. Chairman, this concludes my testimony.
    [The prepared statement of Mr. Brown follows:]
                   Prepared Statement of Devon Brown
    Good Morning Mr. Chairman and members of the Judiciary Committee, I 
am Devon Brown, Director of the District of Columbia Department of 
Corrections. I appear before you today as a 33-year correctional 
executive whose experience includes leadership at both the State and 
local levels within Maryland, New Jersey State, and the District of 
Columbia correctional systems. I do so in firm support of House 
Resolution 1943.
    Having spent the entirety of my career as a public servant in the 
proud membership of the correctional profession, I am acutely aware of 
the many challenges and demands of its operations and gravity of 
responsibilities. Having functioned as the Director of the Montgomery 
County Department of Corrections and Rehabilitation, warden of two of 
Maryland's Maximum Security institutions and as a forensic 
psychologist, I have faced many concerns and issues existing within 
prison walls but ultimately having impact upon all of society. None are 
more important than those addressed by H.R. 1943 as it recognizes the 
growing interface between public safety and public health.
    This bill, like similar ones enacted throughout the country, 
recognizes the critical significance of diagnosing, educating, and 
treating, where appropriate, all inmates for HIV/AIDS as they enter, 
reside within, and leave prison gates. The proposed legislation 
understands that as we speak, over 2.2 million prisoners are currently 
incarcerated within our country's prisons and jails with over 600,000 
of them returning to our communities each year. These individuals will 
be re-establishing themselves in our villages, hamlets, and 
neighborhoods, with many securing employment in fields requiring 
routine and close interaction with the public. Of acute concern is the 
realization that approximately 4-5% of them will be released from 
confinement with HIV/AIDS, a statistic which is five times the rate of 
prevalence in the general population. These individuals will return to 
their families, resituate themselves and resume their lives infected 
with a highly pernicious, destructive, and contagious disease. Many 
will be unaware that they are the host of this acutely devastating 
virus, nor will they know that their disorder has the potential of 
being innocently passed on to unsuspecting others both within and 
outside of prison gates.
    H.R. 1943 endeavors to promote public health for all of the country 
by ensuring that inmates are automatically tested for HIV/AIDS upon 
commitment to federal custody, educated about the disease and treated 
where warranted. Moreover, they are again tested upon completing their 
term of incarceration. These provisions are consistent with the Centers 
for Disease Control (CDC) recommendations and those of several other 
jurisdictions among them the District of Columbia. As a means to offset 
the fiscal resources necessary to implement this legislation, funding 
is available through the U.S. Department of Health Department with 
guidance provided by the CDC.
    As correctional systems take on an increasing and more vital role 
in promoting the vibrancy of our communities, their efforts must 
include doing more to contain the spread of HIV/AIDS. Inasmuch as 90% 
of all HIV positive cases detected in prisons reportedly involve those 
who have contracted the infection prior to incarceration, the proposed 
legislation will also play an important role in protecting the health 
of the brave men and women who serve the people of this country each 
day through their employment within correctional facilities. By 
diagnosing, educating, and treating the inmate population who possess 
the disorder, it is less likely to be spread to prison staff as well. 
House Resolution 1943 recognizes this necessity. Its enactment is in 
the best interest of our correctional systems and the public they 
serve.
    In recognition of this reality, last June the District of Columbia 
Department of Corrections became the first municipal detention facility 
in the United States to comprehensively expand its existing inmate 
health care services to address the HIV pandemic by integrating 
automatic HIV testing into its routine medical intake and release 
procedures. As most correctional systems test for HIV under limited, 
voluntary conditions, our approach in automatically testing all 
detainees at the front and back end of incarceration is highly 
congruent with the elements of H.R. 1943 and stands as indisputable 
evidence of the feasibility as well as success of these procedures. Our 
condom distribution program, implemented during the early 1990's, was 
likewise one of the first initiatives of its kind in the nation and 
complements our automatic HIV testing strategy by contributing to the 
deterrence of the disease's transmission. The condom distribution 
initiative began at a time when only a handful of correctional systems 
supported such a response to controlling HIV in correctional settings. 
It is important to note that while our departmental policy strictly 
prohibits sexual activity among inmates, the HIV/AIDS issue is 
considered more insidious than the consequences resulting from inmates 
committing consensual sex related infractions.
    In conclusion, I leave you with these observations made in 1929 by 
the ``National Society for Penal Information'' as conveyed in a 
publication entitled, Health and Medical Service in American Prisons 
and Reformatories, by F.L. Rector:

        ``Viewed from whatever angle, whether social, economic, 
        administrative, or moral, it is seen that adequate provision 
        for health supervision of the inmates of penal institutions is 
        an obligation which the state cannot overlook without serious 
        consequences to both the inmates and the community at large.''

    These resounding words are as true today as when related over 7 
decades ago. As it relates to HIV/AIDS transmission, the health of our 
nation shall be greatly influenced by the manner in which we address 
our prisons. House Resolution 1943 affirms this truth. Recognizing the 
profound importance that this bill will have in furthering the health 
of all citizens, I enthusiastically support its passage.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
respond to any questions that you may have of me at this time. Thank 
you.

    Mr. Scott. Thank you, Mr. Brown.
    Mr. Jones?

  TESTIMONY OF VINCENT JONES, EXECUTIVE DIRECTOR, CENTER FOR 
               HEALTH JUSTICE, WEST HOLLYWOOD, CA

    Mr. Jones. Good afternoon, Mr. Chairman and Members of the 
Committee. My name is Vincent Jones. I am the executive 
director of the Center for Health Justice.
    The Center for Health Justice is the Nation's only 
nonprofit organization solely focused on HIV prevention and 
treatment education for incarcerated populations. Our mission 
is to empower people affected by HIV in incarceration to make 
healthier choices and to advocate for the elimination of 
disparities between prisoner health and public health.
    More specifically, we provide treatment adherence education 
to positive inmates, prevention education to incarcerated women 
and men at high-risk for HIV infection, and supportive services 
to positive parolees upon release.
    We are the Nation's largest provider of condoms inside 
correctional facilities, and run a nationwide toll-free 
prevention and treatment hotline for inmates. We also have an 
active policy and advocacy team.
    The Center for Health Justice was founded in 2000 by 
advocates with over 20 years' experience in the field to focus 
treatment, advocacy and prevention efforts for the incarcerated 
population, an often-forgotten subset of Americans.
    Our work is guided by the principle that prevention and 
treatment in correction facilities should be equal to that of 
the general public. We call this health justice.
    In general, positive people in the community have access to 
quality medical care, medications, treatment education and 
advocacy and support services, and so should positive 
prisoners. Positive and at-risk folks in the community have 
access to education, condoms and hotlines. So should prisoners.
    Our staff and board have examined H.R. 1943, the Stop AIDS 
in Prison Act, through the lens of Health Justice and decided 
to support this bill. We applaud Congresswoman Maxine Waters 
for recognizing the intersection of HIV and correctional 
facilities and thank her for her leadership on this very 
important issue.
    Before I tell you why we support the Stop AIDS in Prison 
Act, let me share some facts.
    In the United States, one in four people with HIV pass 
through a jail or prison each year; 26 years into the epidemic, 
a quarter of those with HIV are undiagnosed. Women, especially 
women of color, constitute an increasingly large proportion of 
new infections.
    And this might come as a surprise to some, but over 90 
percent of people in prison or jail return to their communities 
in a matter of months, bringing back to their communities the 
effects of poor HIV medical treatment and prevention efforts 
inside.
    But there is a silver lining. The simplest and most cost-
effective way to address the HIV pandemic is through education 
and primary care providers, but incarcerated populations 
generally lack formal schooling and adequate health care. 
Hence, in-custody programs often mark their first and only 
opportunity for HIV prevention and treatment education and the 
best teachable moment, when they are sober, contemplative and 
in a single-sex environment.
    The Stop AIDS in Prison Act recognizes those facts and 
takes advantage of this public health opportunity incarceration 
presents without taking advantage of prisoners and their 
decreased capacity to decline or meaningfully consent to 
participation and intervention.
    It also encourages routine HIV testing in a manner that 
mirrors testing in the general public and approaches treatment 
holistically and also updates the formulary rules in a manner 
that will enhance confidentiality and help extend the lives of 
Americans living with HIV.
    Now for a few statistics. Controlling the epidemic begins 
with more people knowing their status. HIV testing upon request 
is the norm in the general public and should be the case inside 
correction facilities. We are delighted that H.R. 1943 
stipulates that an inmate's request for a test cannot be used 
against her or him in a punitive manner. The fewer 
disincentives to testing that exist, the greater likelihood 
that an individual would choose to be tested and begin to make 
healthier choices upon learning their HIV status.
    While we believe it is important for more people to know 
their status, we know that inmates are more likely to make 
healthier choices after learning their status if they choose to 
take the test themselves rather than have that choice imposed 
upon them. For that reason, we are happy that this bill 
provides a clear opt-out provision for inmates.
    The bill further requires that testing be offered upon 
entry and release and contrasts legislation proposed from other 
jurisdictions requiring testing only upon exit. Testing upon 
entry and release is preferable because it allows an individual 
receiving a positive diagnosis to do so in an environment where 
he or she can receive required care rather than just a 
diagnosis upon departure.
    We also like the strong pre-test and post-test counseling 
as it helps inmates to understand the ramifications of a 
positive or a negative result.
    We are also pleased that this bill calls for comprehensive 
treatment. Not only is comprehensive treatment the goal in the 
general public, but it is a more effective approach to reducing 
reinfection and prolonging lives.
    Providing for a formulary that will contain all the FDA-
approved medications necessary to treat HIV and AIDS and 
providing for automatic renewal systems for medications and 
requiring that medical and pharmacy personnel provide timely 
and confidential access to medication are all essential to 
providing quality care in prison. And we are happy that these 
issues are addressed in the bill and reflect the authors' 
comprehensive understanding of the challenges of HIV care in 
incarcerated settings.
    At the Center for Health Justice, we assist inmates in 
developing pre-release plans that take their health into 
consideration and know the effectiveness of these types of 
tools. We are also happy that this bill provides a similar 
planning.
    Finally, the exposure incident provision in this bill is 
one in which we look forward to working with the author to 
improve. It could be argued that this provision makes prisoners 
living with HIV the subject of scrutiny rather than members of 
our community to be supported with increased counseling and 
testing and educational resources. We agree with the goal of 
reducing intramural HIV transmissions, including to staff, but 
we believe this can be done in a different manner.
    In closing, I cannot thank you enough for the opportunity 
to provide our expertise to those whose goals are consistent 
with our mission. The passage of this bill will help plug a 
huge gap in our Nation's plan to reduce the spread of HIV and 
extend the lives of Americans living with the virus.
    I welcome the opportunity to show any of you how our 
programs work in real incarcerated settings, as that can help 
you understand why we believe that the bill is so essential.
    Thank you.
    [The prepared statement of Mr. Jones follows:]
                  Prepared Statement of Vincent Jones
    Good morning. My name is Vincent Jones. I am the Executive Director 
of the Center for Health Justice, an organization based in Los Angeles. 
The Center for Health Justice empowers people affected by HIV and 
incarceration to make healthier choices and advocates for the 
elimination of disparities between prisoner health and public health.
    More specifically, Center for Health Justice provides treatment 
adherence education to HIV+ inmates, HIV prevention education to 
incarcerated women and men at high-risk for HIV infection, and 
supportive services to HIV+ parolees upon release. We are also the 
nation's largest provider of condoms inside correctional facilities, 
and provide prisoners access to condoms in the Los Angeles and San 
Francisco County Jail systems. Finally we run a nationwide HIV 
prevention hotline that prisoners may call collect while incarcerated.
    The Center for Health Justice was founded in 2000 by HIV advocates 
with over 20 years experience in the field to focus HIV treatment 
advocacy and prevention efforts on incarcerated populations, an often 
forgotten subset of the HIV community. But ignoring this population is 
the detriment of us all.
    Here are the facts: In the US one in four people with HIV pass 
through a jail or prison each year; 26 years into the epidemic a 
quarter of those with HIV are undiagnosed. Women, especially women of 
color, constitute an increasingly large proportion of new infections. 
And this might come to a surprise to some but over 90% of people in 
prison or jail return to their communities in a short period of time, 
bringing back to their communities the effects of poor HIV medical 
treatment and prevention efforts inside.
    The fundamental tenet of our organization is the principle that HIV 
prevention and treatment in correctional facilities should be equal to 
that of the general public. We call this health justice. In general, 
HIV+ folks in the community have access to quality medical care, HIV 
medications, treatment education and advocacy and support services: 
HIV+ prisoners should also. HIV+ and at-risk folks in the community 
have access to prevention education, condoms and HIV hotlines that 
provide information to reduce the risk of transmission: HIV+ and at-
risk prisoners should to.
    Applying principle of Health Justice to the real world is not only 
the right thing to do but it is also good policy.
    Today, I am here to tell you that our staff and board have examined 
HR 1943, the STOP AIDS in Prison Act of 2007 through the lens of Health 
Justice and decided to support this legislation. We applaud 
Congresswoman Maxine Waters for recognizing the intersection of HIV and 
correctional facilities and thank her for her leadership on this very 
important issue.
    As you know the purpose of the bill is to stop the spread of HIV 
and AIDS among prisoners, to protect staff from HIV infection, to 
provide comprehensive medical treatment to prisoners who are living 
with HIV, to promote HIV awareness and prevention among prisoners, to 
encourage prisoners to take responsibility for their own health and to 
reduce the transmission of HIV in prison.
    We like the fact that many elements of this legislation conforms 
with existing standards and practices employed outside of correctional 
facilities. More specifically:

        <bullet>  Testing and Counseling upon intake is consistent with 
        the provision of testing to individuals who are not 
        incarcerated. The strong pre and post test counseling component 
        of the legislation is critical because it helps inmates 
        understand the potential ramifications of a positive OR a 
        negative result. In either instance, it is incumbent upon them 
        to make healthier choices and appropriate counseling and 
        education makes that more likely.

        <bullet>  Improved HIV Awareness through Education is critical. 
        The simplest and most cost-effective way to address the HIV 
        epidemic is through education and primary care providers, but 
        incarcerated populations generally lack formal schooling and 
        adequate healthcare. Hence, in-custody programs often mark 
        their first and only opportunity for HIV prevention education 
        and in the best teachable moment: when constituents are sober, 
        contemplative, and in single sex environments. In our 
        experience while education is available to some portion of 
        prisoners at some times in some facilities, all programs could 
        benefit from increased access by community service providers 
        and health departments and prisoner peer educators to provide 
        HIV education. We particularly support the provision of 
        educational materials to be available at intervals during 
        incarceration including at orientation, in medical clinics at 
        regular educational programs and prior to release. In our 
        experience education, particularly about a sensitive topic as 
        HIV, is best reinforced frequently and provided repeatedly to 
        individuals who at various points during their lives and 
        incarceration may be more open to receiving such information.

        <bullet>  Controlling the HIV epidemic begins with more people 
        knowing their HIV status. HIV Testing upon request is the norm 
        in the general public and should be the case inside 
        correctional facilities as well. We are delighted that the 
        legislation stipulates that an inmate request for an HIV test 
        can not be used against her or him in a punitive manner. The 
        few obstacles to testing that exist the greater likelihood that 
        an individual will choose to be test and begin to make 
        healthier choices upon learning their HIV status.

        <bullet>  The encouragement of HIV testing of pregnant women is 
        also critical and is the norm in the general population. We 
        know that we can stop the transmission of HIV from a mother to 
        her child if the appropriate treatment is given at the right 
        time.

        <bullet>  By doing HIV prevention and treatment education in 
        correctional facilities for the past seven years, we know that 
        HIV is often one a myriad of issues that our clients face. For 
        this reason, we apply a holistic approach to treatment. We are 
        pleased that this bill calls for comprehensive treatment as 
        well. Not only is comprehensive HIV treatment the goal in the 
        general public but it is a more effective approach to reducing 
        re-infection and prolonging lives. The confidential counseling 
        and voluntary partner notification aspects of this legislation 
        are important too because they help to create an environment in 
        which HIV positive inmates will seek out and adhere to 
        treatment.

        <bullet>  Providing for a formulary that will contain all of 
        the FDA-approved medication necessary to treat HIV/AIDS is 
        essential. The science around HIV is constantly evolving and 
        the disease affects people differently. One drug that does the 
        trick for one person may not work at all for another. The 
        provision of automatic renewal systems for medication is also 
        essential and we're glad it's included in this bill. It is not 
        uncommon for inmates to go without medications for weeks 
        because their prescription expired after three months--but 
        access to a physician to renew them took more than that time. 
        We were able to resolve this issue with the Sheriff's 
        Department of Los Angeles County, and we are happy to see that 
        this specific issue was addressed in this bill. It reflects the 
        author's comprehensive understanding of the challenges of HIV 
        care in an incarcerated setting.

        <bullet>  Requiring that medical and pharmacy personnel provide 
        timely and confidential access to medications similarly 
        reflects that the author of the legislation understands that in 
        correctional settings it is difficult to provide medications in 
        a way that protects confidentiality. In our experience, HIV+ 
        prisoners' confidentiality is often violated when medications 
        are distributed to folks in long lines and without a way to 
        conceal the type of medication being distributed. And as you 
        know, one's HIV positive status is a highly protected status in 
        terms of confidentiality law in the general public and should 
        be in incarcerated settings due to the many real negative 
        implications that can and do result from being HIV positive in 
        prison or jail.

        <bullet>  We assist inmates in developing pre-release plans 
        that take their health into consideration and know the 
        effectiveness of these types of tools. We are happy that this 
        bill provides for similar planning especially. Many inmates 
        often lack access to adequate health care but can be helped to 
        surmount the obstacle with the proper planning

        <bullet>  To our knowledge, no population is required to take 
        an HIV test. We are happy that this bill provides a clear opt-
        out provision for inmates. While we believe it is important for 
        more people to know their status, we know that inmates are more 
        likely to make healthier choices after learning their status if 
        they choose to take the test themselves.

        <bullet>  The bill further requires that testing be offered 
        upon entry and release, in contrast to legislation proposed in 
        various other jurisdictions requiring testing only upon exit. 
        Testing upon entry and release is preferable because it allows 
        an individual receiving a positive diagnosis to do so in an 
        environment where he or she can receive required care, rather 
        than just a diagnosis upon departure.

        <bullet>  The exposure incident provision in the bill is one 
        which we look forward to working with the author to improve. It 
        could be argued that this provision making prisoners living 
        with HIV the subject of scrutiny rather than members of our 
        community to be supported with increased counseling and testing 
        and educational resources. We agree with the goal of reducing 
        intra-mural HIV transmission including to staff but we believe 
        this could be done in a different manner.
                             in conclusion
    We are pleased that the Congress of the United States has taken 
official notice of the issue of HIV among the incarcerated. We support 
efforts to increase HIV testing in a manner that mirrors HIV testing in 
the community, takes advantage of the public health opportunity 
incarceration presents without taking advantage of prisoners and their 
decreased capacity to decline or meaningfully consent to participation 
in interventions.
    Thank you for the opportunity to provide our expertise to those 
whose goals are consistent with our mission: to empower those affected 
by HIV and incarceration to make healthier choices.
    Thank you.

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Waters. Thank you.
    Mr. Scott. Thank you.
    Mr. Fornaci?

TESTIMONY OF PHILIP FORNACI, DIRECTOR, D.C. PRISONERS' PROJECT, 
   WASHINGTON LAWYERS' COMMITTEE FOR CIVIL RIGHTS AND URBAN 
                    AFFAIRS, WASHINGTON, DC

    Mr. Fornaci. Good afternoon. Thank you. My name is Phillip 
Fornaci. I am director of the D.C. Prisoners' Project at the 
Washington Lawyers' Committee for Civil Rights.
    In that capacity, we work with folks who are incarcerated 
here in D.C. And as probably most of you are familiar, in D.C., 
all folks who are convicted of felonies are sent into the 
Federal Bureau of Prisons. So we work very closely with folks 
who are held in the Federal Bureau of Prisons.
    I wanted to thank the Chairman for having this hearing and 
to especially thank Congresswoman Maxine Waters for her 
leadership on this bill. It is a very important step in curbing 
the spread of HIV, which has decimated so many communities in 
this country.
    We believe that testing combined with effective AIDS 
education efforts can help to prevent new HIV infections. This 
is really where we are going.
    About a dozen years ago, I used to run the largest legal 
organization in D.C. that was geared toward protecting people 
against discrimination based on HIV. A dozen years ago, things 
were a little bit different. It was very common to have 
landlords who would not rent to someone with HIV, employers who 
would not hire someone, doctors who would not even treat 
someone with HIV. And a lot of that has changed, in part 
because there has been such a massive public education effort 
that has gone on over the years and the awareness has grown.
    But I think we need to remember that in jails and prisons, 
it is different. They have not had that exposure, generally 
speaking, to those kinds of educational efforts. It has not 
reached them or in any case has not been received. It is not 
been clear I think to a lot of prisoners how HIV is spread, how 
it affects people who have it. And discrimination is rampant in 
the world of folks who are incarcerated, in a world that is 
marked by violence and desperation.
    We had a case a few years ago that we actually just settled 
last year involving someone in a jail facility who, because he 
had some dispute with a corrections officer, that corrections 
officer posted his medical records on a bulletin board that was 
in a common area of the jail. That inmate was subjected to 
physical violence, his bed was burned, and faced harassment for 
the rest of his stay in jail.
    So we want to be aware that those kinds of things do 
happen, and they will happen again in the future. We want to 
try to prevent it, but this is the culture into which we are 
dropping this bill, and I think it is important that we 
understand that.
    Some comments on the legislation specifically.
    We commend the idea of comprehensive HIV education and the 
testing protocol, and particularly we would also like to 
commend the inclusion of the opt-out provision. Testing in 
itself will do nothing unless people are willing to do 
something with the test results. We can't force people to get 
tested and say, ``Ha, ha, you are positive,'' and expect for a 
result to come out of it. It needs to be a voluntary process, 
as Mr. Jones has already testified, to make that effective.
    So I would urge you to certainly preserve the voluntary 
nature of the testing program, which is so crucial, and 
consider adding a written informed consent that is some kind of 
a sign-off for the individual prisoner to say, ``Yes, I have 
been told I can opt out of it; I have decided to get tested,'' 
or, ``No, I have not.''
    We just want to make sure that there is no coercion in this 
whole process, which is very, very likely to happen without 
some kind of a formalistic process of informed consent.
    I have one concern with regard to the bill, and it is not 
so much concern about the bill but the environment in which we 
are bringing it into, is the confidentiality provisions. They 
could potentially be strengthened in the bill. And I wanted to 
give a few suggestions, and you may do with them what you may. 
They are in my written testimony. I will elaborate slightly.
    One is that we want to require that no non-medical staff 
have access to medical records. This is a basic premise, and it 
is generally the rule in most penal institutions but not 
always, and very often it happens that people have non-medical 
staff have access to medical records. When they do, it causes a 
problem.
    The other thing is there need to be swift and certain 
consequences, including potential job dismissal, for staff who 
allow confidential medical information, including information 
about HIV, to be released to another prisoner. This is where 
problems result, when the information becomes widely known and 
people become known as HIV-positive within a prison setting. It 
will lead to violence, undoubtedly.
    We also want to ensure that there is adequate staffing 
patterns so that people are protected from violence, which 
again we know is more common than we would like to think in 
these facilities. And there will be more of it when we are 
dropping in a situation where many, many people will be tested 
for HIV and many people who didn't know they were positive were 
find out they are positive.
    Finally, I want to raise the issue of the Prison Litigation 
Reform Act. Actually it creates a little bit of a barrier to 
enforcing the confidentiality provisions of this bill. If, for 
example, the instance that I brought up earlier of a person 
whose medical records are posted on the wall, there would be no 
remedy for that person because of the Prison Litigation reform 
Act. Because it did not cause a physical injury to them despite 
that it caused much humiliation and pain and suffering, they 
would not be entitled to any kind of litigation as a result of 
that confidentiality breach.
    Finally, I just want to make one statement with regard to 
the HIV testing on re-entry, which is a great idea and I 
commend you for including that in the bill. I would again, 
though, specifically include language that I have put in my 
written testimony, basically that a refusal to take an HIV test 
will not affect the program placement or the person's 
eligibility for a halfway house placement. And there is a very 
strong possibility of discrimination against people who decide 
they don't want to be tested for whatever reason and they need 
to get into a halfway house.
    We had an incident a few years ago, we had a case where one 
of our clients was to be released on parole, and it became 
known to the parole authorities that she was HIV-positive. She 
actually told them because she had taken coursework in how to 
live with your HIV diagnosis. She was denied parole. We had to 
bring actually a habeas corpus suit in that situation to win 
her release, in part because people didn't understand HIV in 
the parole process.
    So I just wanted to raise some cautionary remarks. But 
again, I want to commend this Committee and particular 
Congresswoman Waters for bringing this.
    Thank you very much.
    [The prepared statement of Mr. Fornaci follows:]
                  Prepared Statement of Philip Fornaci
    Thank you for this opportunity to provide testimony on H.R. 1943, 
the ``Stop AIDS in Prison Act 0f 2007.'' In particular, I would like to 
thank Representative Maxine Waters for her outstanding leadership on 
this issue, as well as the important roles played by Congressman 
Conyers, Congressman Smith, Congressman Scott, Congressman Forbes, 
Congresswoman Lee, and Congresswoman Christensen as co-sponsors.
    My name is Philip Fornaci. I am Director of the D.C. Prisoners' 
Project, a section of the Washington Lawyers' Committee for Civil 
Rights & Urban Affairs. Our organization represents D.C. prisoners held 
both locally in D.C. jail facilities as well as those held in the 
federal Bureau of Prisons (BOP), where those convicted of felonies in 
D.C. are sent. We advocate for appropriate medical care, protection 
from violence, and access to basic constitutional rights.
    Although D.C. prisoners are a small percentage of the overall BOP 
population, more than 7,000 D.C. prisoners are spread throughout 99 
separate BOP institutions, and our organization receives correspondence 
from individuals living in as many as 70 different facilities every 
year. Because we focus heavily on health care issues in the BOP, we 
have a great deal of experience with regard to medical care at a wide 
range of facilities. Additionally, because D.C. prisoners have a 
higher-than-average prevalence of HIV infection than other prisoners in 
the BOP, we have a broad perspective on issues facing people with HIV 
in these facilities. I appreciate the opportunity to comment on this 
legislation.
    The most significant aspect of the Stop AIDS in Prison Act is 
simply that it provides official recognition of the AIDS epidemic 
within the federal Bureau of Prisons (BOP). Because most prisoners in 
the BOP will eventually leave prison, BOP policies and procedures can 
have a strong impact on public health efforts to limit the spread of 
HIV outside of prison. Effective AIDS education programs, policies that 
encourage and support responsible behavior, and comprehensive medical 
treatment for people in BOP custody are therefore extremely important 
for all Americans.
                              hiv testing
    The centerpiece of the Stop AIDS in Prison Act is its mandate for 
routine HIV testing in all BOP facilities in the context of pre- and 
post-test counseling. I commend the bill's sponsors for recognizing 
that ``routine HIV testing'' requires provisions to allow people to 
``opt out'' of HIV testing if they choose to do so, while also giving 
prisoners an opportunity to receive this important information about 
their health.
    The opt-out provision is particularly important because, consistent 
with the goals of the legislation, it does not simply coerce prisoners 
into learning their HIV status. It recognizes that prisoners need to 
choose to be tested for the goals of the legislation to be achieved. 
Effective HIV prevention requires HIV education, along with testing, so 
that people can change their behaviors. The prisoner must enter the 
process voluntarily, be willing to learn about how to protect himself 
and others from infection, and use that information when he is 
released. A more coercive approach that does not allow a prisoner to 
decline testing is unlikely to be effective in achieving the 
educational purposes behind testing. HIV testing on its own does 
nothing to prevent the spread of HIV. What happens after testing is 
crucial.
    Recommendation: Written Informed Consent. To preserve the viability 
of the opt-out provision, and to ensure that all prisoners recognize 
that they have the ability to refuse testing, it is extremely important 
that the bill be amended to include provisions for written informed 
consent. Currently, there are no controls in place that will ensure 
that prisoners have free choice to exercise their opt-out right, and 
there is significant room for coercion. Remedying this need not be 
complicated. In order to ensure that prisoners are aware that they have 
the right to be tested, and the right to refuse to be tested, the BOP 
can design a simple form to that effect, which would remain in the 
prisoner's medical file. It would also ensure that, rather than simply 
telling prisoners that they have a free choice around testing, there 
are actual procedures in place documenting a prisoner's exercise of 
that choice.
                             hiv treatment
    Another important aspect of the bill is the requirement that 
prisoners testing positive for HIV receive comprehensive HIV treatment. 
Although the BOP is required to provide constitutionally-mandated 
levels of medical care, it is not always delivered in every BOP 
facility. We frequently receive reports from men and women who have 
been denied consistent HIV treatment while in the BOP, with frequent 
treatment interruptions. Some BOP facilities tend to provide only the 
most minimal treatment for HIV, changing medications in favor of the 
least-expensive treatments, regardless of their effectiveness. (This is 
particularly a problem in privately-owned facilities that contract with 
the BOP.) Other facilities have chaotic health care delivery systems 
that result in prisoners missing treatments or receiving the wrong 
medicines.
    It is important to recognize that treatment for HIV also requires 
that facilities provide adequate levels of general health care. People 
with HIV often also have hypertension, diabetes, or hepatitis. 
``Comprehensive medical treatment to inmates who are living with HIV/
AIDS'' (section 2(b)(1)) must also include treatment for non-HIV 
conditions for people who also have HIV.
    It is my hope that, with enactment of this legislation, the BOP 
will take this legislative mandate seriously, effectively monitoring 
its facilities to ensure that every prisoner's serious medical needs 
are being met. At this point, no such effective monitoring process is 
in place.
                        confidentiality concerns
    The bill contains language aimed at protecting the confidentiality 
of HIV-related medical information (section 3(7)), but this language is 
unfortunately inadequate for the important task at hand. Although 
stigma and prejudice associated with HIV infection have decreased to 
some extent in the broader society over the last twenty years, people 
with HIV still suffer from job and housing discrimination as a result 
of their HIV status. Despite many years of public education, huge 
segments of the U.S. population still retain false information about 
HIV and about the people who live with it. Unfortunately, HIV is not 
treated like other diseases.
    Within the walls of any BOP prison, however, the situation is far 
worse. HIV is not treated like diabetes or hypertension. People with 
HIV in jails and prisons across the U.S. are isolated and singled out 
for violent treatment. Outmoded beliefs about how HIV transmission 
occurs, as well as false stereotypes about people infected with HIV, 
are commonplace. It becomes fodder for homophobic attacks and physical 
violence. Ignorance about HIV runs rampant not only among prisoners but 
among correctional and even medical staff as well. In the prison 
setting, where violence (including sexual assault) is ever-present, 
persons with HIV must keep their HIV status private for their own 
protection. Identifying as a diabetic or even someone with mental 
illness does not place people at risk of violence; identifying as HIV-
positive may cost a prisoner his life.
    One example may be instructive. Our organization represented a man 
who, for reasons that remain unknown, had apparently gotten into a 
dispute with a correctional officer. That officer posted the man's HIV 
medical records on a bulletin board in a common area in the facility. 
As a result, our client was threatened repeatedly through anonymous 
notes and, when he was moved to another facility, the threats continued 
and his bed was burned. Although he survived, he lived the rest of his 
sentence in fear of further attacks, knowing that both staff and 
prisoners were potential assailants.
    However, unlike in our case, where we were able to bring litigation 
under local law, the federal Prison Litigation Reform Act (PLRA) will 
prevent any BOP prisoner whose confidentiality has been breached from 
enforcing this provision of the bill. There is no way for a prisoner to 
enforce the confidentiality provisions of this bill, nor is there any 
way to recover damages for the terror, mental anguish, and threats that 
would result from a confidentiality breach.
    Recommendation: Strengthen the confidentiality provisions of this 
bill. As in the case described here, corrections staff themselves 
sometimes use HIV information to manipulate and harass prisoners, just 
as some staff commonly use information about a prisoner's sexual 
orientation or alleged status as a ``snitch'' to enforce a code of 
behavior. Simply educating staff about the importance of 
confidentiality will do little to deter such actions. In the context of 
this bill, where thousands of people with HIV will be identified, it is 
imperative that the BOP adopt strict procedures to protect prisoners 
potentially stigmatized by their HIV status. Specifically, enhanced 
confidentiality protections should include:

        <bullet>  A requirement that no non-medical staff have access 
        to confidential prisoner medical information. There is no 
        security-based reason why a corrections office would need to 
        know any confidential medical information, whether HIV status, 
        a mental illness diagnosis, or cancer.

        <bullet>  The guarantee of swift and certain consequences, 
        including job dismissal, for staff who allow confidential 
        medical information (including information about HIV status) to 
        be released to another prisoner.

        <bullet>  Adequate staffing patterns and transparent 
        institutional rules protecting prisoners against violence from 
        other prisoners, regardless of the cause of the violence.

        <bullet>  Include under this bill an exemption from the PLRA's 
        physical injury and exhaustion of administrative remedies 
        requirements to allow prisoners to file individual lawsuits to 
        enforce this provision when corrections staff fail to protect 
        their confidential medical information.
                         hiv testing and parole
    The requirement that prisoners be tested prior to release is a 
useful opportunity, and probably the most appropriate time for HIV 
testing. However, individuals may have their own reasons for not 
wanting to be tested while incarcerated and wish to exercise their opt-
out rights.
    A few years ago, our organization represented a woman whose parole 
was denied because parole authorities found out she was HIV-positive. 
They discovered this because the woman revealed this fact herself, 
citing as proof of her educational achievements that she had completed 
a course in ``Dealing with Your HIV Diagnosis.'' The parole 
authorities, expressing a level of ignorance not uncommon in some parts 
of the broader community, decided that she would be a risk to the 
community. We had to file a habeas corpus petition to secure her 
release on parole, which was successful largely because the case 
generated some media attention.
    There are many other reasons why prisoners may not want to be 
tested prior to release, both practical and psychological. Their rights 
to refuse should not be taken lightly.
    Recommendation: Explicitly endorse the right to opt-out of testing 
prior to reentry. Although the bill refers back to the opt-out 
provision, that provision does not address issues like release to 
halfway house or other pre-release issues. Section 3(9) should also add 
language similar to: ``However, the inmate's refusal shall not be 
considered a violation of prison rules, result in disciplinary action, 
or affect program placement, including eligibility for halfway house 
placement.
    Thank you for this opportunity to provide comments on this 
important piece of legislation. I am available to answer any questions 
you may have.

    Mr. Scott. Thank you.
    Admiral Kendig?

  TESTIMONY OF REAR ADMIRAL NEWTON E. KENDIG, M.D., ASSISTANT 
DIRECTOR, HEALTH SERVICES DIVISION, FEDERAL BUREAU OF PRISONS, 
           U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Admiral Kendig. Good afternoon, Chairman Scott, Ranking 
Member Forbes and Members of the Subcommittee. Thank you for 
the opportunity to discuss the Bureau of Prisons' Infectious 
Disease Management Programs and the Stop AIDS in Prison Act of 
2007.
    My name is Newton Kendig, and I serve as the medical 
director for the Federal Bureau of Prisons. Prior to my current 
position, I served as the Bureau of Prisons' chief of 
infectious diseases. Previously I was medical director for the 
Maryland Department of Correction and Public Safety and, prior 
to that, infectious disease fellow at Johns Hopkins University.
    I am board-certified in infectious diseases and internal 
medicine. I am also on faculty at Johns Hopkins University, 
where I provide care to patients with HIV infections and AIDS 
in a clinic at the university hospital.
    I believe the Stop AIDS in Prison Act of 2007 addresses an 
issue that is of great significance and importance to all of us 
who work in corrections and particularly to physicians who 
provide care to patients who are infected with HIV.
    Bureau of Prisons has a comprehensive infectious disease 
management program that has been remarkably effective in 
diagnosing and treating inmate patients with HIV infections as 
well as controlling the spread of HIV within the Federal prison 
system.
    The prevalence of HIV in the BOP's inmate population has 
been between 0.9 percent and 1 percent, based on multiple 
surveillance testing. Currently the prevalence of diagnosed HIV 
infection is 0.9 percent.
    Acquisition of HIV infection among inmates in the Bureau of 
Prisons is exceedingly rare. In a 1999 admission cohort, 4,826 
inmates without HIV infection were retested several times over 
a 2-year period, with only one conversion.
    All sentenced inmates in the Bureau of Prisons receive a 
physical examination within 14 days and a preventative health 
assessment within 6 months of arrival at an institution. The 
assessment includes screening for signs and symptoms of HIV 
infection. HIV testing is conducted for all inmates with risk 
factors for infection and when otherwise clinically indicated.
    Inmates are reassessed at least every 3 years through their 
incarceration as part of our preventive health care program.
    Inmates are also subject to health care assessments during 
routine and non-routine physical examinations and during 
chronic care appointments. These visits provide ongoing 
opportunities for HIV testing throughout incarceration, 
including testing prior to release.
    With our infectious disease management program, the Bureau 
of Prisons has the following general categories of inmates for 
the presence HIV: inmates who volunteer at any time, when 
testing is clinically indicated, following a blood exposure 
event and during surveillance testing conducted randomly or 
serially.
    We are aware of the newly issued guidelines by the Centers 
for Disease Control and Prevention that recommend community 
standards be changed to include HIV screening as a part of 
routine clinical care in all health care settings. We have 
concerns, however, with the requirement in this bill to test 
all Federal inmates upon release, even in the absence of 
clinical indications.
    The Bureau of Prisons believes this testing requirement is 
not consistent with practical medical judgment for the Federal 
inmate population. Our available incident data and clinical 
experience indicate that Federal inmates are rarely contracting 
HIV infection while incarcerated in the BOP.
    We have been extremely successful in controlling HIV 
transmission within our facilities through a combination of 
inmate education, a medically practical testing program and 
prevention of the behaviors linked to the transmission of HIV 
infection.
    We are concerned that the use of health care staff to test 
all inmates upon release will take away from the time these 
staff spend on other critical health care services. We need to 
ensure that important public health measures, such as securing 
post-release access and necessary medical care are provided to 
inmates.
    The BOP believes we should not risk shifting limited 
resources away from important post-release health care needs.
    Chairman Scott, this concludes my formal statement. And 
again, thank you for the opportunity to comment.
    [The prepared statement of Admiral Kendig follows:]
                 Prepared Statement of Newton E. Kendig
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Did you want to start?
    Ms. Waters. Thank you very much.
    First, Mr. Chairman, I would like to thank all of our 
panelists who are here today sharing such valuable information 
with us. Just sitting here listening to you, I have learned an 
awful lot. And I do have several questions.
    Mr. Brown, given the fact that you guys are leaders in 
testing inmates, what is the reaction of the inmates to the 
idea that they are being tested for HIV/AIDS? Is it done as 
part of a comprehensive examination when they come in, for 
example? How do you do it?
    Mr. Brown. First of all, the inmates are very receptive to 
it, very receptive to it. We do have the opt-out provision, as 
your bill calls for.
    Ms. Waters. Yes.
    Mr. Brown. Those that choose to opt out usually do it 
because they already know their HIV status. It is part of our 
routine medical screening, just as we test for tuberculosis or 
venereal disease, we test for HIV. And as I said, there is the 
opt-out provision.
    Ms. Waters. Mr. Brown, we have built-in confidentiality 
protections in the bill. Have you had a problem with people 
being exposed and being harmed in any way, similar to what has 
been described today?
    Mr. Brown. Well, what was described was something that 
happened reportedly years before the initiation of this 
program. No, we have not had not one single case where there 
has been a breach of confidentiality. As Mr. Fornaci points 
out, if that should happen there will be swift consequences to 
anyone that is guilty of that violation.
    Ms. Waters. Do you have anyone other that medical personnel 
that is handling medical records?
    Mr. Brown. No, only medical personnel.
    Ms. Waters. Okay.
    Dr. Kendig, what is the incubation period for the HIV 
infection that leads to AIDS? How long does it take?
    Admiral Kendig. From the time of infection to the 
progression to AIDS on average is 10 years without 
antiretroviral therapy, on average.
    Ms. Waters. So given that you don't do routine testing, 
that it is only testing when it is indicated, or if there is an 
incident where there could have been transmission and you are 
trying to protect the workers there, is it possible that you 
could have inmates who could serve 5 or 6 years in prison and 
their HIV/AIDS status cannot have been detected by anybody?
    Admiral Kendig. Certainly it is possible.
    I do want to emphasize, though, that we are very concerned 
about identifying all infected inmates upon entry to our 
system. Last year we tested well over 24,000 inmates.
    Our clinical practice guidelines make it very clear to our 
clinicians they should have an extremely low threshold for 
testing. And so if there is any indication at all that there 
are risk factors for HIV acquisition, we test those inmates 
upon entry and we repeatedly go back then, because we think it 
is critical to get them treatment.
    Ms. Waters. Well, let us be clear. Let us be clear, because 
we don't want to be confused. You do not have routine testing 
for all inmates coming into the system?
    Admiral Kendig. Correct.
    Ms. Waters. It is only done if it is indicated, or you 
mentioned something about a kind of surveillance or something 
like that. But you don't have routine HIV/AIDS testing for 
inmates entering or exiting prison. Is that correct?
    Admiral Kendig. If by ``routine'' you mean we offer testing 
to every inmate, no. But we do also in addition to the testing 
categories you mentioned, we have testing upon request, inmate 
request, at any time.
    Ms. Waters. But again, we are clear, you don't have it 
routinely for all inmates entering or exiting. And there is 
this incubation period that you just described, which it is not 
unreasonable to believe someone could serve time in prison, 2, 
3, 4, 5, 6 years, and not be detected. Is that possible?
    Admiral Kendig. It is possible.
    I would just mention, with all respect, that it is also 
possible with opt-out. Our testing that is risk-based is 
mandatory. With an opt-out provision, there is also the 
potential that inmates that have injection drug use histories 
or other high-risk behaviors would also not be detected.
    Ms. Waters. Based on the question that I asked Mr. Brown 
about the reaction of inmates to the knowledge that they have 
testing available, it seems that what I am hearing is that most 
of the inmates want to know whether or not they are infected 
and they would welcome treatment and would be better positioned 
when they leave to manage their infection and not to infect 
others.
    Would you agree with that?
    Admiral Kendig. I would. And that, ma'am, would certainly 
be our hope. We do show a videotape to all of our inmates 
currently where former Bureau of Prison inmates, both genders, 
all races, talk about their experience with HIV infection and 
encourage our inmates to be tested. And with this bill, we 
would continue to approach this with peer oriented education.
    Ms. Waters. What percentage of your inmates are actually 
tested? What percentage of the people ask to be tested?
    Admiral Kendig. I don't have the answer to that question.
    Ms. Waters. Describe your surveillance testing to me.
    Admiral Kendig. We have two types of surveillance testing 
that are permitted through our policy and rules language.
    One is random testing, and that is to assess the 
prevalence, so it is broad-based, where we test across the 
Bureau of Prisons, to determine our prevalence.
    Ms. Waters. How often is that done?
    Admiral Kendig. It is done periodically.
    Ms. Waters. But no set----
    Admiral Kendig. No.
    Ms. Waters. And when was the last time?
    Admiral Kendig. In 1999.
    Ms. Waters. In 1999?
    Admiral Kendig. Yes.
    Ms. Waters. This is 2007?
    Admiral Kendig. Yes.
    Ms. Waters. That is a long time.
    Admiral Kendig. It is.
    Ms. Waters. I would like to thank Mr. Jones for coming from 
my hometown. And I would like to thank you for your testimony.
    I am particularly interested in how you assist inmates who 
are exiting to be able to continue and maintain care.
    Mr. Jones. We help them by putting together a pre-release 
health plan, and it addresses a number of issues in their 
lives, because oftentimes for these clients HIV is a small part 
of what they have to deal with. Oftentimes, they are homeless, 
unemployed, so on and so forth. So we help them to address all 
of the issues going on in their life as well as HIV.
    And if they are positive, currently in L.A. County or in 
most of California, there is a transitional case management 
program. So if you are positive, you get linked on care on the 
outside. You get linked to a doctor, to housing in some cases.
    Our programs focus people who don't know their status or 
have not been tested positive. We try to make sure that they 
stay negative, if they are negative.
    Ms. Waters. And do you have some suggestions for us? In our 
bill we talked about on exit the counseling, 30-day supply of 
medicine and referral or follow-up. Do you have some way that 
you can suggest we should strengthen that?
    Mr. Jones. I think that it is great that you definitely 
include that in there, because the link from incarceration to 
being released is very critical, and if people are just kind of 
put out there into the community with no support, then it is a 
missed opportunity, especially because for most of the 
population they don't get any public health messages. So I 
think the fact that you are giving them the medication and the 
counseling, that is great.
    Perhaps some education could happen for parole officers. In 
our experience, we have found that some parole officers don't 
know how to deal with that type of information. And sometimes 
they use it against them. And so if we can help to strengthen 
the support of parole officers to support those inmates, that 
can be helpful.
    Ms. Waters. Thank you very much.
    Mr. Scott. Thank you.
    Mr. Forbes?
    Mr. Forbes. Thank you, Mr. Chairman.
    I would like to echo Congresswoman Waters in thanking you 
all for being here, especially for your patience in putting up 
with us having to go back and forth today.
    I support this bill and am a cosponsor of the bill, but I 
do want to ask some questions that I think are important for us 
to try to understand.
    Mr. Jones, just a quick question for you, because I only 
have a few minutes. Did I understand you to say that you felt 
prisoners should have a right to have condoms?
    Mr. Jones. Correct.
    Mr. Forbes. Admiral, let me ask you a couple of questions 
too.
    On this risk-based assessment, you have two population 
groups. One is the group of people that you would determine to 
have a risk assessment that would lend themselves to be testing 
positive for HIV. And then the other set would be obviously 
individuals that do not fall in that category.
    As to those who have a higher risk factor, your testing 
right now is actually greater than the testing that would be in 
this bill since there is an opt-out factor. Is that fair to 
say?
    Admiral Kendig. I am not sure. And I agree, I don't know 
whether or not we will identify more inmates or fewer inmates. 
They are two different strategies and it is----
    Mr. Forbes. I am just talking about for the risk-assessed 
group, that one group.
    Admiral Kendig. I think because it is mandatory we are more 
sure that we will be able to----
    Mr. Forbes. Is there anyway you could argue that a 
mandatory, where you are testing everybody, would be less 
likely to pick it up than one with an opt-out provision?
    In other words, it looks like to me, if I am testing 
everybody, I have got a greater net to pick up everybody than 
if I had a provision where I am allowing people to opt out. Am 
I missing something on that?
    Admiral Kendig. Correct. Correct.
    Mr. Scott. Can they opt out now?
    Mr. Forbes. I think the admiral said there is no opt-out 
provision for that set of people with risk assessments.
    Admiral Kendig. Correct.
    Mr. Forbes. As for that other population group, the ones 
that you don't do the risk assessment, how much more likely are 
they to have HIV than the general population outside of prison?
    Admiral Kendig. First of all, I just want to clarify, 
everyone does get a risk assessment, regardless of their 
criminal history, their medical history, they get asked 
questions upon incarceration, and that is repeated during 
preventative health visits.
    We have an incredibly diverse population in the Bureau of 
Prisons and we have a subset of inmates who really are at very, 
very low risk for HIV, and that has been our strategy, because 
of that, to go through risk-based sting. But I can't really 
quantify that for you.
    Mr. Forbes. This isn't a trick question. I am just trying 
to get an answer.
    You bring the entire population in, in the prisons, and you 
do your risk assessment for everybody as they come in.
    Admiral Kendig. Correct.
    Mr. Forbes. There is a group of people that you identify 
and say they have a higher risk factor for having HIV than the 
other group. Is that correct?
    Admiral Kendig. Correct.
    Mr. Forbes. As to those individuals in that set, you have 
mandatory testing that they cannot opt out of?
    Admiral Kendig. Correct.
    Mr. Forbes. So as to that set, you have got 100 percent 
testing. As to the other group, the group that you did not feel 
met that criteria for having a higher risk assessment, how much 
more likely would that group be to have HIV than the general 
population outside of the prison?
    Admiral Kendig. I think it would be fairly comparable. 
Again, we do have diverse subsets.
    Mr. Forbes. I understand that. But it would be fairly 
comparable?
    Admiral Kendig. Yes.
    Mr. Forbes. In fact, it might even be lower because outside 
you are going to have some people who if you did an assessment 
you would say they have a high risk factor for having HIV.
    My point is, we don't give testing to people outside the 
prison for HIV on a regular basis, do we?
    Admiral Kendig. Well, the Centers for Disease Control new 
guidelines recommend routine care in all health care settings 
in this country if the prevalence is less than .1 percent.
    Mr. Forbes. What about other illnesses?
    Because I think one of our concerns is this--and this is a 
leading question. I am not saying this is what she was asking, 
but I heard Congresswoman Waters, maybe you just raised the 
question, that in a 10-year period of time somebody could go 
from HIV to AIDS, and I think one of our concerns is we would 
hate to have somebody in prison in that period of time, 
granted.
    But there are a lot of other illnesses that I would be 
equally concerned about. I am thinking about colon cancer, 
prostate cancer, lung cancer, pancreatic cancer, all of which 
if you miss you may have a smaller window than 10 years. Would 
that be correct?
    Admiral Kendig. Correct.
    Mr. Forbes. Are you doing any testing on any of those 
illnesses?
    Admiral Kendig. It is part of our preventative health care 
program. We have age-based, but this is all, again, risk-based 
criteria. We follow the U.S. Preventative Task Force guidelines 
for the most part on when to screen for chronic illnesses, like 
diabetes and hypertension, for cancers such as cervical cancer, 
breast cancer, and for any chronic infectious diseases.
    So we do have published specific guidance on when to screen 
for all of these different infections and it is all risk-based.
    Mr. Forbes. Mr. Brown, are you doing testing that is the 
same kind of testing on all of your inmate population that you 
do on HIV? Do you do that for the other illnesses, such as 
colon cancer, prostate cancer, pancreatic cancer, all of the 
ones that would have, actually, a lower window than 10 years 
before we may be in a terminal situation from those?
    Mr. Brown. Keep in mind, we operate a municipal detention 
center, not a prison. But my response is the same as the 
doctors. There is a risk-based criteria that we use in making 
those type of assessments. They are done, but there is certain 
criteria.
    Mr. Forbes. Risk-based?
    Mr. Brown. Yes, sir.
    Mr. Forbes. So HIV is the only one that you do that is not 
risk-based?
    Mr. Brown. No, sir.
    Mr. Forbes. Oh, I am sorry.
    Mr. Brown. No, sir. In addition to HIV, when people come in 
our system we test for tuberculosis, we test for venereal 
disease. There is a serious of contagious diseases that all 
prison systems, including the Bureau, would test for if it met 
the ACA, the American Correction Association standards.
    So it is not just HIV. That is the exception, actually.
    Mr. Forbes. I understand.
    Last question that I would just ask, Admiral, you and Mr. 
Brown both, what do you have in terms of tangible evidence from 
individuals that you have tested, you have found that they have 
tested positive, how did that get us a better result? I mean, 
what behavioral patterns did you see change in them? How were 
we able to help them, treating them and those particular 
findings?
    Could both of you just address that for us?
    Mr. Brown. Keep in mind that our testing results have 
indicated approximately 3 percent of our intake of 19,000 that 
come through our walls each year test positive for HIV.
    Now, it is not just a matter of giving them pamphlets, it 
is not just a matter of showing a videotape. We constantly, 
just as you would go to your physician and while you are 
waiting you might see a series of health related videos on the 
TV, we have that.
    The good congresswoman asked my colleague here what in 
addition would we ask to be done to improve the bill. Keep in 
mind, the average inmate reads at less than an 8th-grade 
reading level. It is not a matter of a pamphlet. You have got 
to bring groups in that prison and educate them constantly, not 
one time but constantly, keep this at the front burner, and 
that is what we do at the District of Columbia.
    Mr. Forbes. And Admiral?
    Admiral Kendig. First of all, I hope I have shared my 
concern and my support for identifying people that are living 
with HIV infection. Unlike 10 or 15 years ago, we can provide 
life-saving intervention, so that is first key and paramount.
    But secondly, from a prevention and infection control 
standpoint, it is an opportunity to counsel the inmates about 
safe activities as far as blood exposures with cellmates that 
they need to avoid and obviously participation in prohibiting 
behaviors such as tattooing, injection drug use or sexual 
contact with other inmates that could transmit the virus to 
others. And then also pre-release, as far as going back to live 
with their families and the important measures they need to 
take to protect their loved ones.
    Mr. Forbes. Thank you all.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    We are going to try to complete the questioning so we don't 
have to keep you another half-hour.
    Do you have questions, any questions?
    Mr. Coble. I was just going to apologize for my not being 
here, Mr. Chairman.
    I want to thank the admiral for the very cooperative 
exchange I have had with the BOP staff. Convey my best to 
Harley.
    I will hold my questions for later, Mr. Chairman.
    Mr. Scott. We are not coming back.
    Mr. Forbes. Now is later. [Laughter.]
    Mr. Fornaci, can you say a little about the consent form 
you had mentioned?
    Mr. Fornaci. Yes. I believe that is even the procedure that 
is used at the DCJ with their HIV testing. And it basically 
says, ``Yes, I have been told that I can opt out, and I have 
decided not to opt out.''
    Mr. Forbes. How does that differ from what is in the bill?
    Mr. Fornaci. Because the bill basically says we will give 
information, a written piece of paper that says that you can 
opt out. It doesn't necessarily mean anyone is ever reading it. 
It doesn't mean that anyone has ever acted on it. It something 
you stick in the person's file saying, ``Yes, I know about 
it,'' and it is a little measure of control.
    Mr. Forbes. And, Dr. Kendig, what services are available 
after someone is released from prison that tested positive?
    Admiral Kendig. Well, the Bureau of Prison's philosophy is 
if possible to have all inmates go to halfway houses, as a part 
of re-entry, so we can facilitate their transition to the 
community services. And so optimally we would be linking 
inmates to HIV services through the halfway house program.
    If they are a direct release, then we put together a 
transition care plan with their case manager and work with the 
social workers, particularly at our medical centers and some of 
our other facilities where we house large numbers of HIV-
infected inmates to help with that transition plan.
    Mr. Forbes. If someone tests positive, do you consider that 
in their placement in prisons?
    Admiral Kendig. Yes. We, several years ago, implemented a 
medical classification system in the Bureau of prisons, so we 
now actually designate inmates not just based on security 
needs, but based on their medical needs. We have some prisons 
in very remote parts of the country. We have had this occur, 
where we have had doctors in remote parts of the country in the 
community who say I have never taken care of an AIDS patient in 
my career.
    Because of that, we are strategically designating inmates 
with HIV infection throughout the Bureau of Prisons----
    Mr. Forbes. But that is for medical treatment, not to 
segregate them from the population?
    Admiral Kendig. Correct, it is for medical treatment and it 
is throughout our system, but there are a few remotely located 
prisons where we would not house HIV patients for----
    Mr. Forbes. We just have a few seconds.
    Ms. Waters, do you have another question?
    Ms. Waters. Yes, I wanted to be clear about what the 
admiral said about mandatory testing in response to Mr. Forbes' 
question.
    When you say ``mandatory,'' is that really mandatory? I am 
told that if the inmate refuses the test, that he or she is 
written up for refusal to obey an order. And only in the event 
of an exposure incident involving a guard is an inmate forced 
to be tested.
    Admiral Kendig. Correct. We do not do forcible testing.
    Ms. Waters. I think it is important for you to have that 
cleared up because I think the way you were asked the question 
and the way it was answered, you were led to believe that in 
this testing procedure, that it was mandatory.
    Mr. Scott. That there was no opt-out.
    Ms. Waters. There was no opt-out.
    Mr. Forbes. That is what I thought it was.
    Admiral Kendig. Well, I mean, it is different than opt-out. 
We don't tell the inmates they have an opportunity to opt out. 
We say it is mandatory for the sake of your health and also for 
prevention purposes.
    Ms. Waters. But if they choose to opt out, that is what I 
am describing, they can opt out?
    Admiral Kendig. With sanctions, yes.
    Ms. Waters. Well, the sanction is to be written up for 
refusal to obey an order.
    Admiral Kendig. Yes.
    Ms. Waters. Is that correct?
    Admiral Kendig. Yes.
    Mr. Forbes. What is the sanction for that?
    Admiral Kendig. It would depend on the specific case, and 
they would go through a disciplinary hearing process.
    Mr. Forbes. Did you indicate you tested 24,000 inmates?
    Admiral Kendig. Yes, sir.
    Mr. Forbes. How many tested positive?
    Admiral Kendig. Two and one-tenth percent.
    Mr. Forbes. Where did we get .1 percent from?
    Admiral Kendig. That is our diagnosed prevalence, if you 
take our diagnosed number of inmates and divide it by our 
denominator. Two and one-tenth percent is when we do risk-based 
testing, we identify about twice as many individuals compared 
to our baseline prevalence.
    Mr. Forbes. Any other questions?
    We want to thank you for your testimony. This has been very 
helpful. I would like to thank the witnesses for their 
testimony.
    Members may have additional written questions which we will 
forward to you, and answer as promptly as you can in order that 
they may be part of the record.
    Without objection, the hearing record will remain open for 
1 week for submission of additional materials.
    Further, without objection, the Committee stands adjourned.
    [Whereupon, at 4:05 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

Prepared Statement of the Honorable Maxine Waters, a Representative in 
  Congress from the State of California, and Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security
    I would like to thank Chairman Bobby Scott and Ranking Member Randy 
Forbes for organizing this hearing on H.R. 1943, The ``Stop AIDS in 
Prison Act,'' which I introduced last month. I would also like to thank 
both of them, as well as Judiciary Committee Chairman John Conyers and 
Ranking Member Lamar Smith, for all of their recommendations and 
assistance in drafting this bill.
                          hiv/aids in america
    Twenty-five years after AIDS was discovered, the AIDS virus 
continues to spread. About 1.7 million Americans have been infected by 
HIV since the beginning of the epidemic, and there are 1.2 million 
Americans living with HIV/AIDS today. Every year, there are 40,000 new 
HIV infections and 17,000 new AIDS-related deaths in the United States.
    HIV/AIDS is spreading especially rapidly among women and racial 
minorities. In 1985, women accounted for a mere 8% of new AIDS cases; 
by 2005 they accounted for 27%. In 1985, Hispanic Americans accounted 
for only 15% of new AIDS cases; by 2005 they accounted for 25%. In 
1985, African Americans accounted for a quarter of new AIDS cases; by 
2005 they accounted for half. African American women account for an 
astonishing 67% of new AIDS cases among women, and over 70% of new AIDS 
cases overall are found among people of color.
                      hiv/aids in american prisons
    HIV/AIDS is also spreading in our nation's jails and prisons. In 
2005, the Department of Justice reported that the rate of confirmed 
AIDS cases in prisons was three times higher than in the general 
population. The Department of Justice also reported that 2.0% of State 
prison inmates and 1.1% of Federal prison inmates were known to be 
living with HIV/AIDS in 2003.
    However, the actual rate of HIV infection in our nation's prisons 
is unknown because prison officials do not consistently test prisoners 
for HIV. There is little knowledge about the lifestyles of those who 
enter our nation's prisons, and there is usually no official 
acknowledgement that sexual activity--whether consensual or otherwise--
is taking place in prisons. The only way to determine whether HIV is 
being spread among prisoners is to begin routine testing. Furthermore, 
if prison inmates are exposed to HIV in prison and then complete their 
sentences and return to society without knowing their HIV status, they 
could infect their spouse or other persons in their community.
    While we don't know the rate of HIV infection in Federal prisons, 
we do know that racial minorities have high incarceration rates. 
According to Department of Justice statistics, 40% of Federal prison 
inmates in 2003 were black and 32% were Hispanic. So if prisoners leave 
prison with HIV/AIDS and don't know it, the virus will continue to 
spread among minority communities.
                    the importance of hiv screening
    HIV screening is essential to stop the spread of AIDS. About one 
quarter of the people living with HIV/AIDS in the United States do not 
know they are infected. The Centers for Disease Control and Prevention 
(CDC) reports that many infected persons decrease behaviors that 
transmit the AIDS virus to sex or needle-sharing partners once they 
find out about their infection. The CDC theorizes that sexually 
transmitted HIV infections could be reduced by more than 30% per year 
if all HIV-infected persons found out about their infection and changed 
their behavior in a manner comparable to those who already know of 
their infection. When people know their HIV status, they are more 
likely to act responsibly--to protect their partners and themselves.
    On September 21, 2006, the CDC published new guidelines for HIV 
screening in health care settings. These guidelines recommend routine 
HIV screening for all patients between the ages of 13 and 64, 
regardless of risk factors, under an ``opt-out approach,'' in which 
patients are notified that an HIV test will be included in their 
routine health care and they can refuse to take the test. However, 
separate written consent for the HIV test is not required. Instead, 
consent for an HIV test can be included in the general consent for 
medical care.
    The CDC's new guidelines are an expansion of the CDC's guidelines 
for HIV screening of pregnant women, which were issued in 2001. The 
2001 guidelines recommended routine HIV screening for all pregnant 
women using an opt-out approach. The 2001 guidelines led to a dramatic 
95% decline in perinatal AIDS cases.
                     description of the legislation
    The ``Stop AIDS in Prison Act'' would require the Federal Bureau of 
Prisons to develop a comprehensive policy to provide HIV testing, 
treatment and prevention for inmates in Federal prisons. This bill 
requires the Federal Bureau of Prisons to test all Federal prison 
inmates for HIV upon entering prison and again prior to release from 
prison, unless the inmate opts-out of taking the test. The bill also 
requires HIV/AIDS prevention education for all inmates and 
comprehensive treatment for those inmates who test positive for HIV. 
This bill has 28 cosponsors and bipartisan support.
                      criticism of the legislation
    The legislation I introduced may be considered controversial by 
some people. There is a large and diverse group of stakeholders 
involved in HIV/AIDS policy debates, including HIV/AIDS advocacy 
organizations, gay and lesbian organizations, civil rights groups, 
churches and religious groups, the medical community, and even the 
entertainment industry. Everyone involved in these policy debates 
shares the same goal: the prevention and eradication of HIV and AIDS, 
but not everyone agrees on the most effective ways to accomplish this 
goal.
    One common concern that has been expressed about the ``Stop AIDS in 
Prison Act'' is that the bill does not require the Bureau of Prisons to 
obtain separate written consent from prisoners prior to an HIV test. I 
believe that requiring separate written consent as a pre-condition for 
an HIV test would defeat one of the main purposes of the bill, namely 
to help prisoners find out if they have HIV. Prisoners already have the 
right to obtain an HIV test upon request if they believe they are at 
risk. My bill would enable prisoners who do not know they are at risk 
to find out if they are infected.
    My bill does give inmates the right to ``opt-out'' or refuse 
routine HIV testing, and it requires the Bureau of Prisons to inform 
inmates both orally and in writing of this right. The claim that 
separate written consent should be required for HIV tests within 
Federal prisons is especially ironic, given the fact that the Bureau of 
Prisons' current procedures do not allow prisoners to opt-out of an HIV 
test. Prisoners who refuse an HIV test are written up for refusal to 
obey an order and could face disciplinary action. Under the bill, 
prisoners could refuse an HIV test without fear of disciplinary action. 
Nevertheless, I would be pleased to work with concerned individuals to 
ensure that the opt-out language is effective at protecting prisoners' 
rights.
                      support for the legislation
    I am honored that several prominent HIV/AIDS advocacy organizations 
are supporting the ``Stop AIDS in Prison Act.'' These include AIDS 
Action, The AIDS Institute, the National Minority AIDS Council, and the 
AIDS Healthcare Foundation. The bill also has been endorsed by the Los 
Angeles County Board of Supervisors. I request unanimous consent to 
submit letters and statements of support for inclusion in the hearing 
record.
                               conclusion
    I firmly believe that the ``Stop AIDS in Prison Act'' will help 
stop the spread of HIV/AIDS among prison inmates, encourage them to 
take personal responsibility for their health, and reduce the risk that 
they will transmit HIV/AIDS to other persons in the community following 
their release from prison. I look forward to hearing the testimony of 
the witnesses on how this legislation would contribute to our nation's 
efforts to stop the spread of AIDS and provide effective, compassionate 
care to people who are living with HIV.

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
